<html>
<title> - WOODS, DANIELSON, AND HARRIS NOMINATIONS</title>
<body><pre>[Senate Hearing 112-140]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-140
 
                WOODS, DANIELSON, AND HARRIS NOMINATIONS

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON

                      ENERGY AND NATURAL RESOURCES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

THE NOMINATIONS OF GREGORY H. WOODS, TO BE GENERAL COUNSEL, DEPARTMENT 
 OF ENERGY, DAVID T. DANIELSON, TO BE AN ASSISTANT SECRETARY OF ENERGY 
  (ENERGY EFFICIENCY AND RENEWABLE ENERGY), DEPARTMENT OF ENERGY, AND 
 LADORIS G. HARRIS, TO BE DIRECTOR FOR THE OFFICE OF MINORITY ECONOMIC 
                      IMPACT, DEPARTMENT OF ENERGY

                               __________

                           SEPTEMBER 15, 2011


                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
71-128                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Danielson, David T. Nominee to be Assistant Secretary of Energy 
  (Energy Efficiency and Renewable Energy).......................     8
LaDoris G. Harris, Nominee to be Director for the Office of 
  Minority Economic Impact.......................................    11
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Woods, Gregory H., Nominee to be General Counsel.................     5

                                APPENDIX

Responses to additional questions................................    37


                WOODS, DANIELSON, AND HARRIS NOMINATIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2011

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK. Why don't we get started? The committee 
meets this morning to consider 3 nominations.
    Before I start a very short statement describing those, let 
me just make a short statement about the passing yesterday of 
former Senator Malcolm Wallop of Wyoming, who served with great 
distinction on this committee. He served in the Senate for 18 
years from 1977 through 1995. He was a member of this Energy 
and Natural Resources Committee for all but his first 2 years 
in the Senate. He chaired the Subcommittee on Public Lands and 
Reserved Water for three terms and served as the ranking member 
of the full committee during his last 2 terms.
    As ranking member, he worked closely and constructively 
with Chairman Bennett Johnston to forge the landmark Energy 
Policy Act of 1992. In addition to his work on this committee, 
Senator Wallop took a very active role in defense and foreign 
policy and trade and tax matters. I was fortunate to serve with 
him on the Armed Services Committee as well.
    He is survived by his wife, Isabel, and 4 children by a 
previous marriage. We extend our condolences to all of them.
    I didn't know if Senator Murkowski wanted to make any 
statement about Senator Wallop before I go ahead with the 
regular hearing.
    Senator Murkowski. Thank you, Mr. Chairman. I did not have 
the opportunity to really come to know Senator Wallop in a 
working capacity. He had worked for many years with my father 
when they were both members of this Energy Committee.
    I can recall some of the stories that my father had shared. 
Apparently he had a pretty good sense of humor and was an 
individual that not only had the respect of his colleagues, but 
who also shared his love for the land in ways that worked to 
make a difference for our country.
    He will be missed. I share your words in conveying our 
condolences to the family.
    The Chairman. Thank you.
    As I indicated the committee meets this morning to consider 
3 nominations for positions in the Department of Energy.
    Gregory Woods, to be the General Counsel.
    David Danielson, to be the Assistant Secretary for Energy 
Efficiency and Renewable Energy.
    LaDoris Harris, to be the Director of the Office of 
Minority Economic Impact.
    Mr. Woods is currently the Deputy General Counsel for the 
Department of Transportation. He was previously a partner in 
the law firm of Debevoise and Plimpton in New York. He was a 
trial attorney in the Justice Department prior to that.
    Dr. Danielson is currently a Program Director in the 
Department of Energy's Advanced Research Projects Agency, known 
as ARPA-E. Before that he was a Clean Energy Venture 
Capitalist, specializing in financing of solar, wind, biofuels, 
carbon capture and sequestration and advanced lighting 
projects. He holds a Doctorate in Materials Science and 
Engineering from MIT.
    Ms. Harris is currently the President and Chief Executive 
Officer of Jabo Industries. It's a minority, woman owned, 
management consulting firm specializing in the Energy 
Information Technology and Health Care Industries. She was 
previously an Executive with General Electric Company and held 
executive and management positions at ABB and at Westinghouse 
before that.
    All 3 nominees have demonstrated their ability and 
qualifications for the positions to which the President has 
nominated them by their professional training and experience. I 
strongly support all 3 nominees. I'm delighted to welcome them 
to the committee this morning.
    Let me defer to Senator Murkowski for her statement.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Welcome to each 
of you. Mr. Woods, Dr. Danielson, Ms. Harris, I appreciate you 
being here and your willingness to serve.
    Dr. Danielson, if confirmed as Assistant Secretary for 
Energy and Efficiency and Renewable Energy, your task will be 
to find the path for the eventual and inevitable transition 
from fossil fuels to that next generation of energy 
technologies. One of the issues that we continue to struggle 
with and which is particularly acute in these difficult 
economic times is what role the government really plays in this 
transition. Earlier this week we had a kind of a round table 
with a group of businessmen from the Bipartisan Policy Council. 
Mr. Bill Gates was part of that group.
    We discussed the importance of the government role in basic 
R and D. While the availability of funding is certainly more of 
an issue now than ever, I am one of those who believes that 
there is a role for government in research and development. So 
the real question is, what happens next?
    We hear a lot about the valley of death for investment. But 
it appears that there is more than just one valley of death out 
there. The real question is whether or not it's the 
government's responsibility to get businesses through each of 
them.
    In EPACT 2005 the Loan Guarantee Program was established to 
attempt to deal with one valley of death toward 
commercialization of new technologies. But it's unfortunate 
that the original intent of the Loan Guarantee was subverted by 
the Stimulus bill. The original Section 1702 and 1703 Loan 
Guarantee process has requirements to prevent what we're seeing 
in the Solyndra case, not least of which was the payment of the 
subsidy cost by the borrower.
    However in the Stimulus bill, Section 1705 was added along 
with a large appropriation for Federal payment of the credit 
subsidy for the renewable energy projects, setting the stage 
for political convenience to trump wise, financial decisions. 
There's also some evidence that the requirements of Section 
1705 were simply ignored in the Solyndra case. This possibility 
is one reason behind my support for the Clean Energy 
Development Bank idea. The goal was to set up an independent 
entity removing the Loan Guarantee from the political process 
and hopefully ensure that the financial experts have the final 
say.
    I think the Solyndra case demonstrates that our problems 
can't be solved by just pouring money on the problems. All of 
the Loan Guarantees and subsidies in the world will eventually 
be for naught if the technology can't stand on its own 2 feet 
in the marketplace. That means competing on cost which requires 
lower energy costs. Our economy needs abundant, inexpensive 
energy to thrive.
    So when we're talking about green energy and creating green 
jobs, it's important to note that those jobs could be 
counterproductive for the overall economy if it results in 
increased energy costs. I think all of us can agree that we 
face a range of difficult energy related challenges and the 
appointees from within our executive agencies will be expected 
to provide the leadership to help meet them. What we need right 
now are smart people who will work with the private sector to 
find the right policies, set the right conditions that will 
ensure our Nation's continued prosperity.
    I look forward to hearing from each of you today regarding 
how we can exactly do that. I welcome you to the committee. 
Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    The rules of our committee which apply to all nominees 
require that nominees be sworn in in connection with their 
testimony. I'd ask each of you to stand and raise your right 
hand if you would please.
    Do you solemnly swear that the testimony you're about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    Mr. Woods. I do.
    Mr. Danielson. I do.
    Ms. Harris. I do.
    The Chairman. Please be seated.
    Before you begin your statements I'll ask 3 questions and 
address them to each nominee before the committee today.
    The first question is will you be available to appear 
before this committee and other congressional committees to 
represent Departmental positions and respond to issues of 
concern to the Congress?
    Yes, Mr. Woods.
    Mr. Woods. I will, sir.
    The Chairman. Dr. Danielson.
    Mr. Danielson. I will.
    The Chairman. Ms. Harris.
    Ms. Harris. I will.
    The Chairman. Thank you.
    Second question. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict of 
interest or create the appearance of such a conflict should you 
be confirmed and assume the office to which you have been 
nominated by the President?
    Mr. Woods.
    Mr. Woods. Mr. Chairman, my investments, personal holdings 
and other interests have been reviewed both by myself and the 
appropriate ethics counselors within the Federal Government. 
I've taken appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest or appearances 
thereof, to my knowledge.
    The Chairman. Thank you.
    Dr. Danielson.
    Mr. Danielson. My investments, personal holdings and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof, to my 
knowledge.
    The Chairman. Thank you.
    Ms. Harris.
    Ms. Harris. My investments, personal holdings and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no interests--of conflicts of interest or appearance 
thereof, to my knowledge. Thank you.
    The Chairman. Thank you very much.
    The final question we ask all nominees is are you involved 
or do you have any assets that are held in a blind trust?
    Mr. Woods.
    Mr. Woods. No, sir.
    The Chairman. Dr. Danielson.
    Mr. Danielson. No, I do not.
    The Chairman. Ms. Harris.
    Ms. Harris. No, I do not.
    The Chairman. Thank you all. At this point in our normal 
procedure we invite nominees to introduce any family members 
that are with them, if there are family members present today.
    Mr. Woods, did you have anybody you wanted to introduce?
    Mr. Woods. Yes, Mr. Chairman. Thank you very much. I'm 
lucky that my wife is here, Mary, together with my children 
Jamie and Ainsley Mae and my mother, Kathy.
    The Chairman. We welcome them. Glad to have them here.
    Dr. Danielson, did you have anyone you wanted to introduce?
    Mr. Danielson. Yes. I'm lucky to have my parents, Paul and 
Margaret Danielson and my girlfriend, Margaret Cantrell. My 
parents flew in from California last night. I wanted to thank 
them for all their love and support.
    The Chairman. Thanks. We appreciate them being here and 
welcome them.
    Ms. Harris, did you have anyone you want to introduce?
    Ms. Harris. Yes, Chairman. First I would like to say I have 
a host of family and friends. I have with me my sons, Garry and 
William Harris, my sister and business partner, Lillie Reed, my 
assistant Martha Crawford, my cousin Sharon. I have my 
Goddaughter, Yonni is here. Oh, boy, a whole host of others 
here. Please stand up.
    [Laughter.]
    The Chairman. Good. We should have gotten a bigger hearing 
room.
    Ms. Harris. Yes.
    [Laughter.]
    The Chairman. We appreciate them being here. Welcome them 
all.
    At this point we would go ahead and defer to the nominees 
to make their opening statements.
    Mr. Woods, why don't you go ahead?

  TESTIMONY OF GREGORY H. WOODS, NOMINEE TO BE GENERAL COUNSEL

    Mr. Woods. Thank you, Mr. Chairman.
    Chairman Bingaman, Ranking Member Murkowski, distinguished 
members of the committee, thank you very much for the 
opportunity to appear before you here today.
    First, I'd like to thank President Obama for nominating me 
to serve as General Counsel of the Department of Energy. I 
intend to work hard to justify the confidence that he's placed 
in me.
    I wanted to also thank Secretary Chu for asking me to serve 
as his Counsel. I look forward to the opportunity to advise him 
and his team as they develop and implement policies to address 
our Nation's energy needs.
    I'd also like to thank Secretary LaHood and my colleagues 
at the Department of Transportation, without whose tutelage and 
support I couldn't have developed the skills that I have to 
bring to further serve at the Department of Energy.
    Finally, I'd like to thank my wife, Mary, my children 
Ainsley Mae and Jaime and my family and friends both here and 
afar for their love and support.
    Mr. Chairman, Ranking Member Murkowski, as you both know, 
the General Counsel is the principle legal officer of the 
Department responsible for ensuring that the Department 
operates in full compliance with the law. The General Counsel 
provides legal advice and counsel to the Secretary and his 
colleagues, represents the Department as counsel before other 
Federal Governmental agencies and works with the Department of 
Justice to represent the agency before the courts. Thankfully 
for me, the General Counsel does not do all of this on his own. 
The Department has a dedicated and energetic staff of career 
attorneys and I look forward to working with that team and 
drawing on its deep expertise.
    Mr. Chairman, ranking member, this nomination is a great 
honor for me. It's been a journey to get here. My wife and I 
are raising our children in Washington Heights in New York 
City, but I was raised alone by my mother as a single parent in 
Philadelphia. My family's roots are in West Virginia.
    Both my parents were born in Morgantown. My grandfather and 
great grandfather were--both mined coal for a living. My mother 
worked several jobs at a time while I was growing up to provide 
the education that made it possible for me to be here today. 
I'd like to give a special thanks to her for all that she's 
done for me.
    Sir, after graduating from Williams College in 
Massachusetts I was fortunate to have the opportunity to attend 
Yale Law School. Following my graduation from law school I 
joined the United States Department of Justice as a trial 
attorney, attracted by the prospect of serving the United 
States. At the Justice Department I prosecuted fraud cases 
against government contractors under the False Claims Act. That 
was invaluable preparation.
    I've had the personal experience of litigating on behalf of 
the United States. I learned that intimately government 
contracting process and how it can be abused. I left the 
Department of Justice in 1998 to join Debevoise and Plimpton, a 
leading New York based law firm.
    After 6 years as an Associate in the firm's Corporate 
Department I was promoted to become an Equity Partner of the 
firm. My practice there was varied, but it focused on financing 
complex acquisitions and joint venture arrangements. In each of 
the last 3 years of my 5 years at their firm as a partner I was 
recognized by Chambers as one of the leading lawyers in New 
York in banking and finance.
    In 2009 I left my firm to become Deputy General Counsel at 
the Department of Transportation. There I helped to oversee and 
manage the legal and regulatory affairs of the Cabinet 
Department with over 55,000 employees and 500 lawyers. In my 
work at DOT over the last two plus years, I've dealt with a 
broad range of issues that regularly confront lawyers in 
government service and I've learned from valued colleagues how 
to cultivate and develop a strong legal team. I'll draw on that 
experience to manage the legal affairs of the Department of 
Energy.
    I've learned from good experience also at the Department of 
Transportation how important it is for government agencies to 
have open and honest lines of communication with the Congress. 
If confirmed I hope to have many opportunities to work with the 
members of this committee and your staff as we go forward.
    Mr. Chairman, Ranking Member Murkowski, I hope that you and 
this committee will conclude that I have the qualifications 
required for the position for which I've been nominated. I'll 
come to the Department with a wide range of high level, legal 
experience, management skills, dedication and judgment honed 
during my years of practice in both government and the private 
sector.
    Thank you and the committee once again, for the opportunity 
to appear before you. I'd be pleased to answer any questions 
that you may have. Thank you.
    [The prepared statement of Mr. Woods follows:]
 Prepared Statement of Gregory H. Woods, Nominee to be General Counsel
    Chairman Bingaman, Ranking Member Murkowski, distinguished Members 
of the Committee, thank you very much for the opportunity to appear 
before you today.
    First, I would like to thank President Obama for nominating me to 
serve as General Counsel of the U.S. Department of Energy. I intend to 
work hard to justify the confidence that he has placed in me.
    I also want to thank Secretary Chu for asking me to serve as his 
counsel. I look forward to the opportunity to advise him and his team 
as they develop and implement policies to address our Nation's energy 
needs. I would also like to thank Secretary LaHood and my colleagues at 
the Department of Transportation, without whose tutelage and support I 
could not have developed the skills that I hope to bring to further 
service at the Department of Energy.
    Finally, I would like to thank my wife, Mary, my children, Ainsley 
Mae and Jamie, and my family and friends, both present and afar, for 
their love and support.
    Mr. Chairman, as you know, the General Counsel is the principal 
legal officer of the Department, responsible for ensuring that the 
Department operates in full compliance with the law. The General 
Counsel provides legal advice and counsel to the Secretary and his 
colleagues, represents the Department as counsel before other Federal 
governmental agencies, and works with the Department of Justice to 
represent the agency before the courts. The General Counsel does not do 
all of this on his own: the Department has a dedicated, energetic staff 
of career attorneys. I look forward to working with that team and 
drawing on its deep expertise.
    This nomination is a great honor for me; it has been a journey for 
me to get here. My wife and I are raising our children together in the 
Washington Heights neighborhood of New York City, but I was raised 
alone by my mother in Philadelphia, and my family's roots are in West 
Virginia. Both of my parents were born in Morgantown; my grandfather 
and great-grandfather mined coal for a living. My mother worked several 
jobs at a time when I was growing up to provide the education that made 
it possible for me to be here today.
    After graduating from Williams College in Massachusetts, I was 
fortunate to have the opportunity to attend Yale Law School. Following 
my graduation from law school, I joined the United States Department of 
Justice as a Trial Attorney, attracted by the prospect of serving the 
United States. At the Justice Department, I prosecuted fraud cases 
against government contractors under the False Claims Act. That was 
invaluable preparation--I have had the personal experience of 
litigating on behalf of the United States, and I learned intimately the 
government contracting process and how it can be abused.
    I left the Department of Justice in 1998 to join Debevoise & 
Plimpton, a leading New York-based law firm. After six years as an 
associate in the firm's corporate department, I was promoted to become 
an equity partner of the firm. My practice was varied, but focused on 
financing complex acquisitions and joint-venture arrangements. In each 
of the last three years of my five years at the firm as a partner, I 
was recognized by Chambers USA as one of the leading lawyers in New 
York for banking and finance.
    In 2009, I left my firm to become the Deputy General Counsel at the 
Department of Transportation. There, I help to oversee and manage the 
legal and regulatory affairs of a cabinet department with over 55,000 
employees and 500 lawyers. In my work at DOT over the last two-plus 
years, I have dealt with the broad range of issues that regularly 
confront lawyers in government service and learned from valued 
colleagues how to cultivate and develop a strong legal team. I will 
draw on that experience to manage the legal affairs of the Department 
of Energy.
    I have learned from good experience at the Department of 
Transportation how important it is for government agencies to have open 
and honest lines of communication with the Congress. If confirmed, I 
hope to have many opportunities to work closely with the Members of 
this Committee and your staff.
    Mr. Chairman, I hope that you and this Committee will conclude that 
I have the qualifications required for the position for which I have 
been nominated. I will come to the Department with a wide range of 
high-level legal experience, management skills, dedication, and 
judgment honed during my years of practice in government service and 
the private sector.
    Thank you and the Committee once again for this opportunity to 
appear before you. I would be pleased to answer any questions you may 
have.

    The Chairman. Thank you very much. Let me just note for 
Senator Manchin's information: Mr. Woods just told us that he's 
a native of West Virginia. So maybe you knew that.
    Senator Manchin. That's why I'm here.
    The Chairman. I understand.
    [Laughter.]
    The Chairman. I knew there had to be an explanation.
    [Laughter.]
    The Chairman. Dr. Danielson, why don't you go ahead?

 TESTIMONY OF DAVID T. DANIELSON, TO BE ASSISTANT SECRETARY OF 
        ENERGY (ENERGY EFFICIENCY AND RENEWABLE ENERGY)

    Mr. Danielson. Thank you, Chairman.
    Chairman Bingaman, Ranking Member Murkowski and 
distinguished members of the committee, it is a distinct honor 
and privilege to appear before you today as President Obama's 
and Secretary Chu's nominee for Assistant Secretary for Energy 
Efficiency and Renewable Energy. I wish to thank Secretary Chu 
and President Obama for their support and confidence in 
recommending and nominating me.
    I also want to thank the committee for considering my 
nomination.
    I was born and raised in a middle class family in Salinas, 
California where I attended public schools and developed a 
lifelong love of math and science. My love for math and science 
led me to pursue an undergraduate degree in Materials Science 
and Engineering at the University of California Berkeley. 
During my studies there I became keenly aware of energy's 
critical role in America's national and economic security and 
the profound opportunity that exists for our Nation to leverage 
its world class, technical, entrepreneurial and industrial 
talent to solve these challenges.
    Fully committed to meeting these challenges I went on to 
pursue a PhD at MIT to develop cutting edge, new energy 
technologies. While at MIT I conducted research in solar power, 
taught courses on advanced energy technologies and authored 
more than 20 scientific articles. In addition to my research, I 
founded the MIT Energy Club, a first of a kind, campus 
organization devoted to building a multidisciplinary MIT energy 
community through an outcome oriented, fact based, technology 
agnostic approach to solving our Nation's energy challenges. 
The club became the largest, most active organization on 
campus, helped spawn the creation of MIT's Energy Initiative, a 
325 million dollar energy research initiative that engages more 
than 270 MIT faculty researchers and catalyzed the creation of 
a network of more than 45 sister organizations at top 
universities around the country with more than 10,000 members.
    After my time at MIT I joined the private sector as an 
energy venture capitalist, co founding the Clean Energy 
Investment Practice at General Catalyst Partners, a Boston 
based venture capital firm with $1.7 billion under management. 
As a venture capitalist I helped create and grow American 
energy startups in various advanced energy technology areas 
including advanced biofuels, natural gas, solar power, wind 
power, carbon capture and storage and efficient lighting. While 
in venture capital I also co founded the New England Clean 
Energy Council, a non-profit organization that built a strong 
regional clean energy community and serves as a platform for 
effective public/private partnerships.
    Two and a half years ago, I left the private sector to help 
establish the Department of Energy's Advanced Research Projects 
Agency Energy, ARPA-E, as its first employee. At ARPA-E I 
played a critical role in establishing and building the core 
foundations of organizational, cultural and operational 
excellence for this new agency. I'm proud to say that ARPA-E is 
already yielding some very exciting, early results.
    As ARPA-E's first Program Director I currently manage $100 
million in investments and 24 high risk, high impact R and D 
projects in next generation batteries for plug in electric 
vehicles, grid scale storage, next generation solar wafers, 
geothermal drilling, rare Earth magnets and waste heat 
capturing thermal electric devices. With continued developments 
for it, these ARPA-E projects could lead to the creation of 
whole new energy technology industries and American leadership 
in those industries. All the things that make American unique 
put us in an incredibly strong position to create and lead the 
energy industries of the future. We have the world's best and 
most creative researchers in our universities and national labs 
and our entrepreneurial ecosystem is second to none.
    I believe that my technical and business background in a 
wide variety of clean energy fields has provided me with the 
experience and expertise necessary to lead the Office of Energy 
Efficiency and Renewable Energy. EERE has played a pivotal role 
in driving U.S. leadership to date in the emerging energy 
efficiency and renewable energy sectors. Citing just one 
example, EERE support has been critical to the development of 
the batteries at the heart of today's hybrid electric vehicles 
in addition to the batteries in both current and next 
generation plug in hybrid electric vehicles. EERE's mission to 
provide American companies with a clean energy technology 
advantage has only become more urgent as countries like China 
have begun to dramatically scale up their investments in clean 
energy.
    If confirmed I look forward to applying my full energy 
commitment to advancing America's strong and growing energy 
innovation ecosystem. I pledge to work closely with this 
committee to lower our dependence on foreign oil, decrease 
energy costs for American families and businesses and 
reinvigorate the Nation's economy all while providing a better 
environment for our children and grandchildren.
    Mr. Chairman, Ranking Member Murkowski and members of the 
committee, I thank you again for considering my nomination. If 
confirmed I look forward to working with this committee and 
others in Congress as we pursue the common goal of securing 
America's energy future. Thank you. I look forward to answering 
any questions you may have.
    [The prepared statement of Mr. Danielson follows:]
Prepared Statement of David T. Danielson, to be Assistant Secretary of 
            Energy (Energy Efficiency and Renewable Energy)
    Chairman Bingaman, Ranking Member Murkowski, and distinguished 
members of the committee, it is a distinct honor and privilege to 
appear before you today as President Obama's and Secretary Chu's 
nominee for Assistant Secretary for Energy Efficiency and Renewable 
Energy. I wish to thank Secretary Chu and President Obama for their 
support and confidence in recommending and nominating me. I also want 
to thank the Committee for considering my nomination.
    Please allow me to start by introducing my parents, Paul and 
Margaret Danielson, who just flew in from California, and my girlfriend 
Margaret Cantrell. I want to thank them for all of their love and 
support.
    I was born and raised in a middle class family in Salinas, 
California, where I attended public schools and developed a life-long 
love of math and science.
    My love for math and science led me to pursue an undergraduate 
degree in Materials Science and Engineering at the University of 
California, Berkeley. During my studies there, I became keenly aware of 
energy's critical role in America's national and economic security and 
the profound opportunity that exists for our nation to leverage its 
world class technical, entrepreneurial, and industrial talent to solve 
these challenges. Fully committed to meeting these challenges, I went 
on to pursue a PhD at MIT to develop cutting-edge new energy 
technologies.
    While at MIT, I conducted research in solar power, taught courses 
on advanced energy technologies, and authored more than 20 scientific 
articles. In addition to my research, I founded the MIT Energy Club--a 
first-of-a-kind campus organization devoted to building a multi-
disciplinary MIT energy community through an outcome-oriented, fact-
based, technology-agnostic approach to solving our nation's energy 
challenges. This Club became the largest, most active organization on 
campus, helped spawn the creation of MIT's Energy Initiative (a $325M 
energy research initiative that engages more than 270 MIT faculty 
researchers), and catalyzed the creation a network of more than 45 
sister-clubs at top universities around the country with more than 
10,000 student members.
    After my time at MIT, I joined the private sector as an energy 
venture capitalist, co-founding the clean energy investment practice at 
General Catalyst Partners, a Boston-based venture capital firm with 
$1.7B under management. As a venture capitalist, I helped create and 
grow American energy start-ups in various advanced energy technology 
areas including: advanced biofuels, natural gas, solar power, wind 
power, carbon capture and storage, and efficient lighting. While in 
venture capital, I also co-founded the New England Clean Energy 
Council, a non-profit organization that built a strong regional clean 
energy community and serves as a platform for effective public-private 
partnerships.
    Two and a half years ago, I left the private sector to help 
establish the Department of Energy's Advanced Research Projects 
Agency--Energy (ARPA-E) as its first employee. At ARPA-E, I played a 
key role in establishing and building the core foundations of 
organizational, cultural, and operational excellence for this new 
agency. I am proud to say that ARPA-E is already yielding some very 
exciting early results.
    As ARPA-E's first Program Director, I currently manage $100M in 
investments in 24 high-risk, high-impact R&D projects in next 
generation batteries for plug-in electric vehicles, grid-scale storage, 
next generation solar wafers, geothermal drilling, rare-earth free 
magnets, and waste heat capturing thermoelectric devices. With 
continued development and support, these ARPA-E projects could lead to 
the creation of whole new energy technology industries and American 
leadership in those industries.
    All the things that make America unique put us in an incredibly 
strong position to create and lead the energy industries of the future: 
we have the world's best and most creative researchers in our 
universities and national labs and our entrepreneurial eco-system is 
second to none.
    I believe that my technical and business background in a wide 
variety of clean energy fields has provided me with the experience and 
expertise necessary to lead the Office of Energy Efficiency and 
Renewable Energy (EERE). EERE has played a pivotal role in driving U.S. 
leadership to date in the emerging energy efficiency and renewable 
energy sectors. Citing just one example, EERE support has been critical 
to the development of the batteries at the heart of today's hybrid 
electric vehicles, in addition to the batteries in both current and 
next generation plug-in hybrid electric vehicles. EERE's mission to 
provide American companies with a clean energy technology advantage has 
only become more urgent as countries like China have begun to 
dramatically scale up their investments in clean energy.
    If confirmed, I look forward to applying my full energy and 
commitment to advancing America's strong and growing energy innovation 
ecosystem. I pledge to work closely with this committee to lower our 
dependence on foreign oil, decrease energy costs for American families 
and businesses, and re-invigorate the Nation's economy; all while 
providing a better environment for our children and grandchildren.
    Mr. Chairman, Ranking Member Murkowski, and members of the 
committee, I thank you again for considering my nomination. If 
confirmed, I look forward to working with this committee and others in 
the Congress as we pursue the common goal of securing America's energy 
future.
    Thank you and I look forward to answering any questions you may 
have.

    The Chairman. Thank you very much.
    Ms. Harris, go right ahead.

TESTIMONY OF LADORIS G. HARRIS, NOMINEE TO BE DIRECTOR FOR THE 
               OFFICE OF MINORITY ECONOMIC IMPACT

    Ms. Harris. Chairman Bingaman, Ranking Member Murkowski and 
distinguished members of the committee, I am humbled and 
honored to come before you today as President Obama's nominee 
for the Director of the Office of Minority Economic Impact for 
the Department of Energy.
    First I have to thank President Obama and Secretary Chu for 
recognizing my abilities and nominating me for this position. 
I'm also most appreciative of this committee for considering my 
nomination. I am joined today, as I mentioned earlier, by a 
host of family and friends who share my view that this position 
is one that I have been preparing for my entire career.
    I am a 29 year, energy industry leader, who with roles 
spanning from field service engineer to corporate officer in 
some of the world's largest engineering firms. I am currently 
President CEO of Jabo Industry, a minority owned consulting 
business focused primarily in energy information and health 
care industries. My corporate and entrepreneur experience has 
prepared me to effectively perform in the position to which 
I've been nominated.
    I was born in the small town of Denmark, South Carolina. I 
am proud to be the daughter of William ``Jabo'' Guess, a wise 
92 year old, who raised 13 children after my mother died of 
breast cancer when I was only 8 years old. He raised us with 
strong family values, unwavering integrity, robust work ethics, 
commitment to education and faith in God, all wrapped in love 
and laughter.
    I was inspired to pursue an engineering career during a 
field trip to the Savannah River Plant located in Aiken, South 
Carolina, hosted by my chemistry teacher in high school. The 
tour emphasized engineering as an attractive and challenging 
career path for women and minorities. I later returned to 
Savannah River as a summer intern while in college.
    After graduating from the University of South Carolina with 
a Bachelor of Science in Electrical Engineering, I joined 
Westinghouse Electric Company as a field service engineer in 
its nuclear services division. After increasing responsibility 
and exceptional performance I became the youngest employee in 
the history of the division to be promoted to management. 
During my tenure at Westinghouse, I received my Masters of 
Science in Technology Management from Southern Polytechnic 
State University.
    I also worked at Westinghouse at ABB services where I 
received four promotions within a 5-year period. I was named 
Vice President of Operations and Production for all operations 
in the U.S. becoming the highest ranked African American female 
in ABB worldwide. I later joined the executive ranks of the 
General Electric Company where I held a number of leadership 
positions in energy and industrial systems businesses.
    My 29 year career in the energy industry has afforded me 
experience working across many sectors of energy, including 
renewable energy, electric utility, oil and gas industry and 
commercial. My diverse leadership roles from operations, 
engineering services, sales and marketing have prepared me for 
the duties of the Office of Minority Economic Impact. My 
technical and operational experience coupled with my strong 
business acumen equips me with the expertise necessary to lead 
and enhance this very important office of the Department. 
Further, I will lead the office in supporting DOE's mission of 
creating jobs, improving energy security and developing 
innovative and competitive energy technology solutions for our 
Nation.
    My steadfast commitment to mentoring students, young 
professionals and entrepreneurs would be most beneficial in 
connecting with the citizens of which this office is dedicated 
to serving. For example, as Chairman of the Entrepreneur 
Committee for the American Association of Blacks in Energy I 
increased membership by 85 percent thus resulting in winning 
the 2010 Chairman's Cup Award.
    Thus I fully commit to you that I will strive to fulfill 
the duties of this position beyond expectations and to lead the 
continued progression of small, disadvantaged and minority 
businesses in helping to improve our Nation's economy. I am 
committed to fully engaging this office as a critical conduit 
to achieve the Department's overall goals and objectives as 
well as ensure minority businesses, as well as minority 
educational institutions enjoying full participation of the 
Department's programs.
    I would like to thank each of you for your time and 
attention. If confirmed as Director of the Office of Minority 
Economic Impact I will be honored to have the opportunity to 
work closely with this committee. Thank you again and I welcome 
any questions you may have.
    [The prepared statement of Ms. Harris follows:]
Prepared Statement of LaDoris G. Harris, Nominee to be Director for the 
                   Office of Minority Economic Impact
    Chairman Bingaman, Ranking Member Murkowski, and distinguished 
members of the Committee, I am humbled and honored to come before you 
today as President Obama's nominee for Director of the Office of 
Minority Economic Impact for the Department of Energy.
    First, I have to thank President Obama and Secretary Chu for 
recognizing my abilities and nominating me for this position. I am also 
most appreciative of this Committee for considering my nomination.
    I am joined today by a host of family and friends who share my view 
that this position is one that I have been preparing for my entire 
career.
    I am a 29-year Energy industry leader, with roles spanning from 
field service engineer to corporate officer in some of the world's 
largest engineering firms. I am currently President & Chief Executive 
Officer of Jabo Industries, LLC, a minority-woman owned management 
consulting business concentrated primarily in the Energy, Information 
Technology, and Healthcare industries. My corporate and entrepreneurial 
experience has well prepared me to effectively perform in the position 
for which I have been nominated.
    I was born in the small town of Denmark, South Carolina. I am proud 
to be the daughter of William ``Jabo'' Guess, a wise 92 year-old who 
raised 13 children after my mother died of breast cancer when I was 
only 8 years old. He raised us with strong family values, unwavering 
integrity, robust work ethics, commitment to education and faith in 
God, all wrapped in love and laughter.
    I was inspired to pursue an engineering career during a field trip 
to DuPont's Savannah River Site in Aiken, South Carolina, hosted by my 
high school chemistry teacher. The tour guide emphasized engineering as 
an attractive and challenging career path for women and minorities. I 
returned to Savannah River as a summer intern while in college.
    After graduating from the University of South Carolina with a 
Bachelor of Science in Electrical Engineering, I joined Westinghouse 
Electric Company as a field services engineer in its Nuclear Services 
Division. After increasing responsibilities and exceptional 
performance, I became the youngest employee in the history of the 
division to be promoted to management. During my tenure at 
Westinghouse, I received a Master of Science in Technology Management 
from Southern Polytechnic State University. I worked for ABB Services, 
Inc., where I received four promotions within five years. I was named 
VP of Operations & Production for all operations in the U.S., becoming 
the highest-ranked African American female in ABB worldwide. I later 
joined the executive ranks of the General Electric Company, where I 
held a number of leadership positions in its Energy and Industrial 
Systems businesses.
    My 29-year career in the energy industry has afforded me experience 
working across many energy sectors, including renewable energy, 
electric utility, oil & gas, industrial, and commercial. My diverse 
leadership roles in operations, engineering, services, sales and 
marketing, have prepared me for the duties of the Office of Minority 
Economic Impact at the Department of Energy. My technical and 
operational experience, coupled with strong business acumen, equips me 
with the expertise needed to lead and enhance this important office 
within the Department. Further, I will lead the Office in supporting 
the DOE mission of creating jobs, improving energy security and 
developing innovative and competitive energy technology solutions for 
our nation. My steadfast commitment to mentoring students, young 
professionals and entrepreneurs will be most beneficial in connecting 
with the citizens the Office of Minority Economic Impact is dedicated 
to serving. For example, as Chairman of the Entrepreneurs Committee for 
the American Association of Blacks in Energy (AABE), I increased 
membership by 85% thus resulting in winning the 2010 Chairman's Cup 
Award.
    Thus, I fully commit to you that I will strive to fulfill the 
duties of this position beyond expectation and to lead the continued 
progression of small, disadvantaged and minority businesses in helping 
to improve our nation's economy. I am committed to fully engaging the 
Office as a critical conduit to achieve the Department's overall goals 
and objectives, assuring that minority businesses and minority 
educational institutions enjoy full participation in the Department's 
programs and opportunities.
    I would like to thank each of you for your time and attention. If 
confirmed as Director of the Office of Minority Economic Impact, I 
would be honored to have the opportunity to work closely with this 
Committee. Thank you again and I welcome any questions you may have.

    The Chairman. Thank you and thank all of you for your 
excellent statements. Let me start with a few questions.
    Dr. Danielson, let me ask first of all about an issue that 
is of concern to me and I think several on the committee here 
that relates to the Energy Star program. This is a very highly 
successful program, jointly run by the Department of Energy and 
the EPA in partnership with thousands of private businesses and 
organizations. I think everyone agrees that it does save 
American consumers billions of dollars on their energy bills 
every year.
    It's a voluntary program, but perhaps because it is 
voluntary my perception is that EPA has not always done a very 
good job of taking the views and concerns of some of the 
private companies into account in setting its standards. It's 
something that has been brought to the attention of me and 
others on the committee. I guess I would ask you if this is 
something you would be willing to look into assuming you're 
confirmed to ensure that the views of the program's 
stakeholders are fully taken into account in the setting of 
standards?
    Mr. Danielson. Thank you, Chairman, for your question.
    You know, energy efficiency is a huge opportunity, right? I 
think the Secretary has been quoted as saying, It's not the low 
hanging fruit, but the fruit, you know, sitting on the ground 
rotting.'' So I consider energy efficiency and EERE considers 
energy efficiency a high priority for the work that we're 
doing.
    I absolutely commit to working with you on this issue. 
Fortunately the current--if confirmed. The current Deputy 
Assistant Secretary of Energy Efficiency, Kathleen Hogan has 
good ties to EPA. So I think that will allow us to make sure 
that we coordinate in a strong way.
    The Chairman. Very good.
    Let me ask another question. The Energy Act we passed in 
2007, the Energy Independence and Security Act of 2007, 
authorizes the Department to award three prizes for more 
efficient lights. The Department was able to award one of those 
prizes by reprogramming funds. We, both Senator Murkowski and 
I, were available to and participated in the awarding of that 
prize.
    But the Department has not yet requested any funds for the 
other two prizes. I know that you can't commit the Department 
to making any specific budget requests but would you be 
willing, if confirmed, to work to see if you can't move ahead 
with this part of the 2007 bill?
    Mr. Danielson. If confirmed, I will be very happy to work 
with you and this committee on that issue.
    The Chairman. Alright.
    I'll ask one other question of Mr. Woods. The Nuclear 
Regulatory Commission announced a rather confusing decision 
recently on the Department's application to construct a nuclear 
waste repository. The decision neither allows the Department to 
withdraw the application nor allows the Licensing Board to 
continue working on it.
    So that seems to leave the Department in a legal position 
of being both statutorily and contractually obligated to 
dispose of the Nation's nuclear waste, but having no plan to 
meet that obligation other than to wait for the Blue Ribbon 
Commission to come up with a plan. If confirmed, would you be 
willing to take a more active role in helping to find a way for 
the Department to meet its legal obligation under this law that 
I've described?
    Mr. Woods. Yes, sir. If confirmed as General Counsel I 
believe it would be my job to ensure the Department complies 
with its obligations under law. Thank you.
    The Chairman. Very good.
    Ms. Harris, let me just ask you. I recently wrote to 
Secretary Chu about establishing a new, Small Business 
Technical Assistance Program to provide support to small 
business owners who face technical barriers to success.
    Ms. Harris. Yes.
    The Chairman. This would be modeled on the highly 
successful program that NASA has. It would enable Department of 
Energy laboratories and contractors to provide up to 40 hours 
of technical expertise to help small businesses overcome 
technological hurdles. Would you be willing to look into that 
proposal if you're confirmed and see if that's something you 
could support?
    Ms. Harris. Absolutely, Chairman.
    The Chairman. Alright. That's all I had.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Woods, let me start with you. Earlier this year on the 
committee, we had reported legislation on advanced vehicle 
technologies. There was a little bit of a new wrinkle. Instead 
of simply duplicating the Department's existing authorities, 
which has been the traditional approach around here, we decided 
to review everything on the books. We decided to repeal the 
authorities that DOE would no longer need.
    When we went through that process the Office of General 
Counsel was really very helpful. But I think we recognize that 
it was just a start. So my question to you is whether you will 
commit to a full review of all of DOE's current authorizations 
and to help us identify if there are any areas that are 
duplicative and perhaps unnecessary?
    Mr. Woods. Senator, yes. Thank you very much. I'm happy to 
commit to work with you and your staff in your efforts. I think 
it's a lot. We'll endeavor to try to ensure that there's not 
unnecessary duplication of the statute.
    Senator Murkowski. Good. Good. I appreciate that. As we 
look to streamline the Department's authorities in other areas 
we'll appreciate working with you, assuming that you are 
confirmed, to do just that.
    Mr. Woods. Thank you, Ma'am.
    Senator Murkowski. Dr. Danielson, let me ask you the 
question everyone is talking about, Solyndra. It's on the front 
page of the newspapers seemingly everyday right now. It looks 
like our first Federal loan guarantee is going to result in 
some pretty tremendous losses at the expense of U.S. taxpayers.
    Unfortunately we can't say that we weren't warned about 
this. Last year there was a memo by Carol Browner and others 
about the Loan Guarantee Program that suggested that the 
guarantees were going to projects that perhaps really didn't 
need them. As a result the Federal funds were accounting for 
too large a proportion of their financing.
    There's going to be a lot of Monday morning quarterbacking 
going on here. But in reflection of those 2 events it appears 
that the Stimulus loan guarantee program is being used to 
support some companies that don't need support. Then at the 
other end of the spectrum you have companies that won't succeed 
even if we give that substantial Federal assistance.
    So the real question is how do we find the middle because 
right now I can tell you there's an awful lot of people that 
are saying we need to get rid of the Loan Guarantee Program. 
This is a case in point about how this simply doesn't work. The 
question is how do we find that middle? How do we find those 
projects that actually would help or benefit from a loan 
guarantee?
    Then I guess a bigger question is whether or not this is 
actually an appropriate instrument for the government to use in 
promoting innovative energy technologies?
    Mr. Danielson. Thank you for your question, Ranking Member 
Murkowski.
    The President and Secretary Chu I believe nominated me for 
the position at EERE because of my cutting edge, my background 
in cutting edge R and D for my research at MIT and my 
experience in very early stage venture capital which funds 
those first few steps out of the gate for new technologies that 
have great promise. If you look at EERE, the real focus of EERE 
is all about funding cutting edge new technologies that can 
lead to technical performance and cost performance that can 
make them market competitive. Then let those technologies go 
compete out on the market.
    As nominee for EERE I don't have any direct purview over 
the Loan Guarantee Program and my own personal expertise isn't 
in the commercial side of finance. So I don't think I'm in a 
position to directly address that issue.
    Senator Murkowski. I think it is something that, from a 
member's perspective, we need to be ensuring the wise and 
prudent use of taxpayer dollars when they go out toward loan 
guarantees whether it's for solar, whether it's for renewable 
or whatever the initiative may be. This is something that we 
need to get our arms around. Right now questions are being 
legitimately asked about whether or not this is an appropriate 
use and what the future of these loan guarantees truly may be.
    I'm going to have some follow up for you. But before I do 
let me just ask you, Ms. Harris, very quickly: You are very 
familiar as one who has been involved with energy initiatives 
and lots of different levels. You're very aware of the broad 
range of new regulations that are facing our industries, 
particularly some of these initiatives that are coming out of 
the EPA.
    We don't have the jurisdiction over the EPA here in this 
committee, but we do oversee some of the agencies that are 
responsible for ensuring the affordability and the reliability 
of our energy supply. I have asked the FERC to do a full sum 
assessment of what the cumulative impact of some of these EPA 
regs will be on the reliability and the affordability of 
energy. I have asked for that accounting.
    What I would ask you today, if confirmed as the head of the 
Office of Minority Economic Impact, can we count on you to 
monitor the impacts of energy and pollution rules and to 
provide the Secretary and other Administration officials and 
even us here in Congress the full assessments of what we find? 
Because I think in your capacity, you can be looking to the 
impacts on our minorities where so many are in a position where 
they are least able to afford higher utility bills, higher 
costs of just living within their areas. So I'm asking you to 
look to this cumulative impact and be available to report to 
us.
    Ms. Harris. Senator Murkowski, that is a very important 
concern and issue. You can count on my support looking into 
that.
    Senator Murkowski. Thank you. I appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman. Thank all of you 
for appearing today.
    Mr. Woods, we are proud that you're--that you have such 
close ties and so much family still in West Virginia. I know 
you know of our rich history of what we've done and energy we 
produce for this country. We mine the coal that makes the still 
that produces the manufacturing jobs that makes this country go 
for many, many years and we want to continue to still help.
    The Solyndra that my colleague, Senator Murkowski, 
mentioned is very troublesome to us because it's very evident 
and all the indicators are there that we, as a country, and 
those in charge of trying to pick winners and losers by using 
the taxpayer dollars. We don't think that you could ever make 
that happen. We believe that there has to be a broad spectrum 
as far as in our utility and also, as far as our energy 
portfolio.
    I would ask all three of you and I'll start with you, Mr. 
Woods, do you believe energy independence is the most important 
to our security and economic vitality of this country being 
energy independent and using the resources we have.
    Mr. Woods. Yes, sir. Personally I believe in the importance 
of our energy independence.
    Mr. Danielson--Dr. Danielson.
    Mr. Danielson. Senator Manchin, thank you for the question.
    I absolutely believe that energy independence is a key 
priority that we need to have in our energy policy.
    Senator Manchin. You believe that because of security or 
economic vitality or both?
    Mr. Danielson. Both.
    Senator Manchin. OK.
    Ms. Harris.
    Ms. Harris. I am in full agreement. I feel that the small 
business community will also be able to support us making sure 
we have competitive, innovative technology to support that.
    Senator Manchin. With that being said, you know, I know 
that myself and my State coming from an energy producing State 
and being a fossil fuel State which seems to be villianized 
right now by many, many people around this country. I've said 
all along that everyone should say a prayer for people that 
produce the energy that give us the light that we have. With 
that we're doing everything we possibly can, carbon 
sequestration. We haven't, you know, basically it's done by the 
private sector with a partnership with the public sector.
    Going to the next generation as far as in coal fired plants 
and utilizing that until we find the energy of the future. I 
think, Dr. Danielson, as you're saying in renewables. We have 
more wind and people don't realize this. In West Virginia we 
have more wind power than most any State east of the 
Mississippi. We have done everything.
    We're using our hydro. We're using wind. We're using 
biofuels. We're doing it all. But we know our staple, our 
mainstay has been coal and now our natural gas with Marcellus. 
It can be a game changer for the United States of America.
    We just feel like we're hitting a brick wall. EPA has--the 
regulatory agencies, you know. You'd like to think your 
government is working with you not against you. We like to have 
our government as our partner not our adversary.
    I've got to be honest with you. People in my State and 
people from any energy producing State believes that they're up 
against a wall. They can't get past that.
    You wonder why our unemployment is high. There's no, 
basically, in the market right now, I don't know if you feel 
the same as we feel. But I think the greatest things for job 
creation would be some dependency understanding that the 
regulatory agencies are working basically in a balance to find 
how we can be less dependent on foreign oil, more dependent on 
domestic energy whether it's renewables, whether it's using our 
fossils in a cleaner fashion until we get there.
    How will you all administer and try to help move that 
agenda? I'll start with Mr. Woods, with you from the legal 
counsel and try to give good, sound advice. I'm sure as a West 
Virginian, common sense is something we value.
    Mr. Woods. Thank you, Senator.
    One thing that I said at the beginning was my grandfather 
and great-grandfather were both coal miners. So I'm completely 
appreciative of the jobs that those, and the opportunities that 
those careers present. I know I couldn't have been here if not 
for the availability of that work.
    Sir, if I'm confirmed to be General Counsel I'm going to 
try my best to provide strong leadership, provide the 
Department with competent legal advice. My experience is in the 
private sector and I hope that I bring that experience working 
with companies to provide leadership of the Department while 
ensuring that the Department complies with the applicable law.
    Senator Manchin. Dr. Danielson, on the Solyndra, the 
failure of Solyndra, half a billion dollars. Are--I mean, do 
you advocate us trying to make a market when the market is not 
there? The product can't compete in the marketplace?
    Mr. Danielson. Thank you for your question.
    Again, you know, the mission space of EERE is really 
focused on engaging with Americas best innovators and really 
supporting them to develop technologies that are going to go 
out there and compete in the market on their own. So, in my 
role at EERE, you know, if confirmed, I promise to do 
everything we can to get those technologies out there that are 
going to be cost effective--to develop those technologies that 
are going to be cost effective and have superior performance to 
the other products that are being used today.
    Senator Manchin. But you can't guarantee they'll be 
manufactured in the United States, right? That's what we're 
finding out. I mean, we might be developing the technology but 
it's not being manufactured here.
    Mr. Danielson. Thank you for your question.
    In terms of manufacturing one recent strong thrust at EERE 
has been to try to develop new disruptive manufacturing process 
technologies that would be able to be deployed in the United 
States. Recently a program manager was brought in to run the 
Industrial Technologies Program named Leo Christodoulou. We 
brought him in. He's the lead manufacturing person at DARPA. So 
that's a direction that going forward we'd like to move in and 
would love to work with you on the issue of how we create 
leadership in manufacturing technologies as well.
    Senator Manchin. Thank you very much.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    First I'd like to thank you and Ranking Member Murkowski 
for their kind comments on the passing of our friend and 
colleague, Senator Malcolm Wallop. On the front page of the 
Casper newspaper today: ``Malcolm Wallop, 1933 to 2011: `A guy 
you wanted on your side'.'' My wife, Bobbie, was on his staff 
here in Washington and he was just a wonderful individual. We 
will miss him and thank you very much to the both of you for 
your kind comments.
    Mr. Chairman, the nominations. I wanted to congratulate 
each of you. It could not have come at a more critical time for 
the Department of Energy. I think it's fair to say that the 
Department now is facing a really critical time--a crisis--to 
explain what role the Department played. I know you weren't 
there to explain what role the Department played in the 
collapse of the solar panel company, Solyndra, and how the 
United States lost over $5 hundred million in loan money that 
belonged to the taxpayers.
    The nominees here today, if confirmed, are going to have a 
tremendous responsibility, Mr. Chairman, to address this huge 
failure and to prevent it from happening again. We don't yet 
have all the facts. We don't know yet exactly what DOE 
officials did or didn't do to prevent this bad bet.
    An investigation has now been launched by the FBI and the 
Treasury Department announced yesterday they're investigating. 
We don't know yet what role, exact role, the White House played 
in rushing reviewers to approve a decision on a centerpiece--
really the centerpiece--of President Obama's so-called stimulus 
program.
    Some folks have said mistakes were made. That seems to be 
an understatement. This isn't me. This is on the front page of 
the Washington Post yesterday. It says recently released emails 
show that the White House was aggressively monitoring the 
Energy Department's deliberations over the loan. We learned 
that Department of Energy officials sat in on Solyndra board 
meetings as observers. One presumed they observed the company 
that was hurting toward bankruptcy.
    Then yesterday's USA Today where they raised the question 
that Senator Murkowski just raised: should Uncle Sam play 
venture capitalist, consider Solyndra? What we have is the 
Deputy Secretary of Energy writing that Solyndra was simply a 
perfect storm of bad market conditions and other factors 
outside of its control. I agree it was a perfect storm, but I 
don't think we should be blaming China or the markets or a 
previous Administration. The perfect storm appears to be a 
Federal policy of rushed decisions and the demands of a pending 
public relations campaign by the Administration who wanted 
rapid answers so they could go and make press statements.
    So we want to know what's next. We know that the 
President's stimulus package allocated $6 billion for loans to 
support green technology. Solyndra was the first.
    There have been 17 loan guarantees, about $7.8 billion 
given. The Department has commitments for an additional $10 
billion. The Department of Energy has said it plans to close on 
all of those pending loans before September 30th of this year. 
We're talking 15 days from now. That's another $10 billion of 
taxpayer money.
    So the American people deserve more facts about how their 
taxpayer dollars were wasted and how you, as the nominees, will 
work to ensure it doesn't happen again. That's going to be the 
questions that I want to get to. So I guess my question, Mr. 
Woods, is, at yesterday's House hearing on the Department's 
loan to Solyndra the role of the General Counsel was raised on 
several occasions. It's my understanding that the Department 
restructured the loans with Solyndra earlier this year.
    When restructuring the loans the Department subordinated 
the Federal Government's debt to private debt. According to 
Jonathan Silver, the Executive Director of the Office of Loan 
Programs, the General Counsel, and I know you weren't General 
Counsel then, but the General Counsel reviewed the 
restructuring of the Department's loan to Solyndra. But it's my 
understanding that the Energy Policy Act of 2005 specifies that 
a Federal obligation is not to be subordinated to private 
financing.
    So did the Administration violate the law when 
restructuring the loan to Solyndra?
    Mr. Woods. Sir, as you said--Thank you, Senator, thank you 
very much for the question.
    Sir, if I'm confirmed for this position as General Counsel, 
I would accept it as my responsibility to provide correct, 
adequate, legal counsel, properly interpreting the law and 
ensuring that the loans that are granted by the Department are 
issued in full compliance with the law.
    Sir, I think that you're right that this is an area where 
the Department will hopefully benefit from the leadership that 
I would bring to this position. If confirmed I'd bring 11 years 
of experience in the private sector representing institutions 
and financial transactions. If confirmed I hope to bring that 
both my care as a lawyer as well as my commercial expertise in 
the private sector to these transactions.
    Senator Barrasso. Thank you. Mr. Chairman, perhaps we can 
get to a second round because I do have additional questions.
    Just one final question. Do you believe that the law allows 
private investors to get paid before taxpayers on loans 
guaranteed by the government because you've had similar 
positions in government? How's your understanding of how that 
would work?
    Mr. Woods. Sir, I'm sorry. I haven't reviewed that statute, 
but I'd be more than happy to spend the time, if confirmed to 
look into that question.
    Senator Barrasso. Yes. I mean, this question has been all 
over the papers for days now. I think the American people 
really deserve an answer if the American people have to go 
behind the private investors when their money is put up. So 
thank you.
    Mr. Woods. Thank you, sir.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Thank you all 
very much for being here today and for your willingness to 
consider these very important appointments.
    Because I've been working a lot this session on energy 
efficiency most of my questions are for you, Dr. Danielson, 
because as, should you be confirmed, and I hope you will be, 
obviously your office will work on many of these issues. One of 
the challenges that I think exists around energy efficiency 
that perhaps is magnified by the way the Department of Energy 
is structured is that energy efficiency is really a part of all 
of our energy use. We need to think about how to incorporate it 
into all of our energy use.
    Because of the name of your office, Energy Efficiency and 
Renewable Energy, there may be the impression that this is the 
only place where we talk about energy efficiency within DOE. So 
could you talk about how your agency will work with other 
agencies within the Department of Energy or other offices 
within the Department of Energy and how we can better 
incorporate energy efficiency into everything we do around 
energy?
    Mr. Danielson. Thank you for your question, Senator 
Shaheen.
    At DOE over the last year or so as a member of the ARPA-E 
team I've been involved with a number of--with a new concept 
that we have now at the DOE called integrated technology teams. 
These are teams that are getting everyone across from Office of 
Science to EERE, ARPA-E, getting everyone together on a regular 
basis to share best practices, talk about what they're doing, 
make sure we're coordinating everything in a very productive 
fashion.
    I am not sure whether we have one for Energy Efficiency 
yet. That is something that I would definitely create, if 
confirmed.
    Senator Shaheen. I look forward to getting a communication 
from you as soon as that work task force has been created. So 
you can let us know what it's doing.
    One of the concerns that we're hearing from the energy 
efficiency community and from industry, who are particularly 
concerned about energy efficiency, is that there is a tug of 
war going on about whether within DOE we're going to support 
research and development or commercialization. I wonder if you 
could talk about how you view the balance between those two 
challenges for your office.
    Mr. Danielson. Thank you, Senator, for your question.
    I think there does need to be an awareness of 
commercialization issues within the Office of EERE so that when 
we fund R and D and we work with scientists and researchers 
that we have a strong awareness of what are the product 
attributes that these researchers should be moving toward. 
Because researchers often will move in a direction of greatest 
technical interest as opposed to one that might result in 
techno-economic properties of a product that would result in 
commercial adoption. So I believe we do need a balance of 
knowledge within EERE on deep technical knowledge and on an 
understanding of commercialization and how it works.
    So I think a good example of one program, we have a suite 
of great program managers who really understand this. In the 
energy efficiency area that I know is of great interest to you, 
Roland Risser, is running the building technologies program. He 
has 31 years at PG and E, the largest utility in California. He 
ran their energy efficiency programs and he's running the 
buildings program. So, I think, he's an example of the kind of 
leader we have within the Department who is able to merge those 
2 communities, the R and D and the commercial communities.
    Senator Shaheen. Thank you.
    Ms. Harris, first of all let me say how impressive your 
background is and I appreciated your willingness to share some 
of your personal story about how you grew up. Everybody has an 
impressive resume here. But I especially appreciated that.
    Ms. Harris. Thank you.
    Senator Shaheen. Can you talk about some of the particular 
challenges that you see as you look at what minority businesses 
are facing as they're trying to get into the energy area?
    Ms. Harris. Thank you, first of all. Thank you very much.
    You know, small businesses are the lifeline blood for the 
country. The whole idea of making sure that we have 
opportunities that come through this office, if I'm confirmed, 
to be able to support those businesses. It's all about making 
sure if you look at the Department of Energy, for example, is 
second only to the Department of Defense in having the largest 
number of government contracting--having a government contract 
budget. So a substantial amount of that moneys will be supplied 
to support small businesses.
    So that's one area we would really focus on making sure we 
connect that bridge or that conduit between this particular 
office and with private sector and corporations in helping grow 
the economy.
    Senator Shaheen. Thank you.
    Ms. Harris. Thank you.
    Senator Shaheen. Thank you, Mr. Chairman.
    The Chairman. Senator Sanders.
    Senator Sanders. Thank you, Mr. Chairman. If Mr. Woods and 
Ms. Harris will excuse me, I apologize, most of my questions 
will also be for Dr. Danielson because energy efficiency and 
sustainable energy are issues very, very important for the 
State of Vermont.
    I happen to believe A, that global warming is real.
    B, that it is already causing very serious problems in the 
United States and around the world in terms of severe weather 
disturbances.
    I think we have to move boldly and aggressively to 
transform our energy system. I think energy efficiency 
certainly is one way to go and sustainable energy is the other. 
In the midst of that is the recent census report that just came 
out indicates how middle class is collapsing and poverty is 
increasing. We have lost millions of manufacturing jobs in 
recent years. So I think we want to rebuild our manufacturing 
sector.
    One of the concerns that I have is that in recent years, 
Dr. Danielson, China has put an enormous amount of money. 
They've invested some $30 billion alone into solar financing 
for its companies. In other words when they're attracting 
American companies what they're saying is we're going to give 
you 1 percent interest rate. We may build factories for you. We 
may provide tax holidays for you.
    Now how do we, at a time when the solar industry and solar 
jobs in this country are exploding. We went from 46,000 to 
93,000. You know, Mr. Chairman, there's been some certainly 
negative problems within the solar industry.
    We've heard some of them, but let's not forget in the last 
year they've doubled. Solar jobs doubled from 46 to 93,000 
between 2009 and 2010. Solar PV installations doubled as well 
when we installed 878 megawatts of PV in 2010.
    So the solar industry is exploding. But one of the concerns 
that I have is with the huge subsidies that China is providing 
to companies. How do we compete against that and create those 
manufacturing jobs here?
    Mr. Danielson. Thank you for your question, Senator 
Sanders.
    Going back to the role of EERE, when I, as formerly as a 
venture capitalist and during my time at ARPA-E, I've crawled 
through it feels like almost all the labs in the country. It's 
phenomenal the kind of innovation you find. When you look at 
these kinds of technologies that I think represent truly 
disruptive technologies, these are the kind of technologies 
that I think we're going to find are going to get manufactured 
here in the United States.
    I think--at ARPA-E I funded a technology to make solar 
wafers 80 percent cheaper. That's real technology 
differentiation. That's sustainable profit margin.
    I think a couple of areas where I see--the visibility we 
have at EERE is where we think solar prices can get down--
prices can get down where widespread unsubsidized economic 
adoption will happen is in the solar area and in the battery 
area.
    Senator Sanders. Solar, I mean, as you know the price of 
solar panels has just plummeted in recent years. I mean they've 
really gone way, way down. But get back to this issue. We are 
creating many, many solar jobs in America. But I'm worried 
about the manufacturer of solar panels.
    How do you compete against a country which is providing 
massive subsidization for the solar industry in China? Do you 
have any ideas on that?
    Mr. Danielson. So as I discussed before one area that EERE 
is really focusing on is developing completely game changing 
new manufacturing technologies that have far superior 
attributes to the kind of technologies that are being built up 
in China right now.
    Another element of this equation is demand for these 
products in the United States. I've had the chance to tour and 
spend quite a bit of time with a number of the companies that 
have built battery factories in the Midwest. What has become 
clear to me is just the way the auto industry works that if 
you're going to build the plug in vehicle here, you're going to 
build the battery here. The transportation costs are very high 
and the just in time nature of the auto industry makes it so 
that those are going to come together.
    Senator Sanders. Thank you very much.
    Mr. Chairman, you know, there is discussion about how the 
government should not be in the business of picking winners and 
losers. But I think everybody knows, of course, that's what we 
do all the time. The question is whether we're smart or not.
    Let me--Department of Energy. This is dated, when was this 
dated? May 15, 2009. Secretary Chu announces $2.4 billion in 
funding for carbon capture and storage projects. Mr. Manchin, 
sounds to me like we're picking winners and losers.
    Senate Republicans, we're building 100 new plants, nuclear 
power plants as quickly as possible. We hope Democrats will 
join us in that effort particularly now with the President's 
call to action. Senate Minority Leader, Mitch McConnell, the 
comment he said on the Senate Floor today. The President could 
start by moving forward on the Nuclear Loan Guarantee program. 
Sounds to me like we're picking winners and losers.
    So my own point is I happen to believe wind, solar, 
geothermal, biomass, have huge potential in transforming our 
energy system, protecting our environment and creating jobs. So 
let's not--let's end the nonsense about picking winners and 
losers. That's what we're doing.
    The issue is will we pick the smart winners. Will we pick 
those industries that will protect the environment and create 
jobs? That's the debate we should be having. Thank you.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. I just want to note 
I think Senator Sanders made a very good point in the beginning 
of his remarks about subsidies that the Chinese are putting in 
place and we ought to fully investigate what's happening there. 
So thank you, Senator Sanders.
    Thank you to the panel for your willingness to serve the 
country when confirmed.
    Dr. Danielson, let me start with you, if I might. Because I 
think you know several members of the House have sent a letter 
recently questioning the value of the EERE programs. I don't 
agree with that assessment. I'd point to the American Energy 
Innovation Council Report that was released just this week by a 
number of eminent business leaders including Bill Gates and 
Norm Augustine about the critical role that our government 
needs to play in clean energy technology development.
    But I'd like you to respond to that letter and to the 
debate we're having. Is there national value to EERE? What has 
the office contributed to the Nation in the past? What will it 
do under your leadership, if you are confirmed?
    Mr. Danielson. Thank you for your question, Senator Udall. 
It's a--first and foremost EERE is really there to focus on 
developing, you know, working with universities, national labs 
and private sector to develop a suite of technologies that are, 
you know, that ultimately will compete in the market, in the 
energy market. But that's going to require innovation. That's a 
real focus at EERE.
    Can I ask you to clarify your question a little further?
    Senator Udall. Talk to me, and the committee, and the 
Congress and country, about opportunities that you see for EERE 
to build on its past leadership and its past successes. I mean, 
you've already touched on some of that this morning, but I want 
to give you an opportunity to fully share your vision.
    Mr. Danielson. Right. Thank you very much. Thank you for 
the clarification.
    NREL, National Renewable Energy Lab in your own home State 
was--played a critical role in the success of one of a great 
American company in the Clean Energy area named First Solar, 
which has developed a disruptive technology, a thin film 
technology called Cadmium Telluride. That's the most valuable 
solar company in the world, an eight billion dollar market 
capitalization. NREL and EERE and NREL together played a 
critical role at the early stages of helping them get their 
technology up and running and then played a critical role in 
helping them understand issues around materials availability. 
In addition to potential toxicity issues of their product and 
reports from NREL funded by EERE actually went into their early 
sales meetings as I learned, recently, this week.
    So First Solar is one great success. I'd say the batteries 
program at EERE has had significant impact. The R and D down 
there has had a significant impact in lowering battery cost 
over the last at least 3 years from 2009 to current year. 
Battery costs have gone down from $1,000 per kilowatt hour to 
650. By 2015, if our R and D investments pan out, we think we 
can get down to $300 per kilowatt hour. That's the point of 
which a plug in hybrid vehicle actually becomes cost 
competitive.
    So those are a few of the areas where we've already made 
impact. Going forward offshore wind is a big area, marine 
hydrokinetic, geothermal and a number of other areas are areas 
where we think that through significant R and D investments the 
United States can become a world leader.
    Senator Udall. In that context, do you think China is 
investing in all these technologies just so that they can brag 
about being green and feel good about being able to say they're 
green or do you think there's a bigger strategy that they have 
when it comes to their economic development and the potential 
for profit?
    Mr. Danielson. Thank you for this question.
    The Chinese have rapidly growing energy demand. They're 
using pretty much every technology you can think of to try to 
meet that demand. China and India are going to be very rapidly 
growing energy markets and they could be great opportunities 
for American companies to be able to make and export products, 
advanced energy products.
    Senator Udall. So what I hear you saying implicitly is that 
China is pursuing this policy because the job creation 
potential, as well as the environmental benefits, as well as 
their national security concerns, and now I'd editorialize. 
Those are the very same reasons that I believe we need to be 
investing fully in these areas. Understanding that we need an 
all of the above strategy--there's no one silver bullet here. 
There's silver buckshot, in my opinion. We need to be pursuing 
all of these technologies.
    Talk a little bit about--before my time expires, your 
vision for providing leadership and oversight and stewardship 
of the National Renewable Energy Lab which is based in 
Colorado. I will confess I have a particular interest.
    Mr. Danielson. Thank you for your question about NREL. The 
National Renewable Energy Lab is EERE's national lab. It's a 
jewel in the National Lab system. Tremendous talent there.
    As I said before it has had a huge impact in the past. My 
vision is to work very closely with NREL's Director Dan Arvizu 
and with this committee to create a joint vision for NREL and 
EERE together where we're sitting in the room together deciding 
how we can use our resources to best effect and then executing 
on that vision together.
    Senator Udall. Excellent. I'm excited to hear that vision.
    Mr. Chairman, thank you.
    Ms. Harris, your story is inspiring. We look forward to 
working with you.
    Mr. Woods, you and I share the same alma mater, although I 
don't think I could have been admitted at the time you did 
because the standards were raised significantly.
    [Laughter.]
    Senator Udall. So congratulations and look forward to 
working with you as well.
    Thank you.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Dr. Woods--Dr. Danielson, Mr. Woods, I want to go at this 
solar issue in a different way particularly because of the 
ramifications from manufacturing in this country, American jobs 
particularly in solar panels.
    Roughly half the costs of a silicon solar cell is the cost 
of the silicon wafer that is used to make it. Yet the 
Department has refused to recognize the U.S. content of those 
wafers in establishing standards for meeting the Buy American 
provision included in the Recovery Act. Now Dr. Danielson, your 
predecessor refused to look beyond the final assembly stages in 
deciding whether a solar panel had U.S. content. That doesn't 
make sense in the real world because of the global supply 
chain.
    Mr. Woods, it seems that the General Counsel's office went 
along with this approach as well. So what I want to see this 
morning from the two of you, Dr. Danielson and Mr. Woods, is a 
commitment that the Department of Energy both on a policy basis 
and a legal basis is going to take a more realistic look at 
helping America energy equipment manufacturers compete no 
matter where they are in the supply chain. So this is a 
question about whether the Department will take a fresh look 
and specifically at the question of all of the inputs from U.S. 
manufacturing throughout the supply chain because I think if 
that's done we'll be in a position to have solar manufacturing 
in this country and not basically just get all the material 
from China and end up with a installation business in the 
United States and not a manufacturing business.
    So, question. Will you take a fresh look at this?
    Mr. Danielson. Thank you for your question, Senator Wyden. 
Absolutely. Currently in the silicon solar value chain the U.S. 
has a relatively strong position in polysilicon. But in terms 
of wafers has a lower market share. Increasing that market 
share with new technologies would be an absolute boon and I'd 
love to look at this issue with you.
    Senator Wyden. Mr. Woods.
    Mr. Woods. Thank you very much for the question, Senator.
    Senator Wyden. You're not going to be able to do it unless 
you give him the legal green light I think.
    [Laughter.]
    Mr. Woods. Thank you, sir.
    The Buy America provisions of the statute I think are 
important. The policy purpose behind them as I understand is to 
help protect and defend American industry and jobs. Sir, if I'm 
confirmed I'll commit to looking at this issue and return the 
Department--
    Senator Wyden. The fresh eye on the global supply chain. 
Those are the magical words.
    Mr. Woods. I don't understand that issue, sir. But I'm 
absolutely committed to looking at this issue with a fresh eye 
as I get up to speed with all the Department's issues.
    Senator Wyden. OK.
    Dr. Danielson, obviously tough choices in the budget, the 
renewable energy budget does seem to be trying to solve the 
problem by cutting a number of the programs that are small and 
I think are going to make a difference, water power and 
hydrogen. One of the reasons I feel so strongly about this as 
Chairman Bingaman, Senator Murkowski know we worked on the 
alternative, you know, fuel vehicle issue. I'm concerned that 
we not be in a position with these alternative fuel vehicles to 
be putting all our eggs in one basket. I strongly support the 
effort toward electric cars but I know one of the major 
comments I got after the legislation was passed in this 
committee is both domestic and international auto makers want 
to make sure that the bill does allow for the development of 
alternative vehicles particularly hydrogen vehicles.
    Will you make sure, if confirmed, that your Renewable 
Energy Program includes a balanced portfolio and will look 
specifically at some of these technologies that seem to be 
getting short shrift in the budget?
    Mr. Danielson. Thank you for your question. In order to 
achieve the President's goal of reducing oil imports by one-
third by 2025 we're going to need a portfolio of solutions. I 
consider fuel cells and all the technologies in the EERE 
portfolio to be part of that solution.
    We see some of these as technologies that might get in--
that might reach cost parity and performance parity with 
existing vehicles in the nearer term and some of these are a 
little bit longer term investments. I will absolutely make sure 
to have an appropriate balance in that portfolio, if confirmed.
    Senator Wyden. One other quick question before my time 
expires. I've come to the conclusion that we have special 
opportunities in the area of energy storage. Chairman Bingaman 
and I and other colleagues have worked in this area. Part of 
this involves also the Finance Committee and some tax 
incentives, but it's been brought to my attention that the 
office that you're going to manage has refused to allow one 
promising storage technology in the use of grid controlled 
water heaters to be approved.
    I'd like to hear as I wrap up what you're willing to do to 
help develop that energy storage technology because I think we 
understand what an important role they're going to play with 
respect to intermittent, renewable generation.
    Mr. Danielson. Thank you for that question. You know, water 
heaters as a source of demand response is a very promising 
technology. It could be very low cost. That's an interesting 
place where it really sits at the intersection between the 
Office of Electricity run by Patricia Hoffman and EERE, the 
Office for which I've been nominated. If confirmed I promise 
you that I will make sure that that technology doesn't fall 
through the cracks.
    Senator Wyden. If you're confirmed can you get back to me 
within say 60 days particularly on the area of the technology, 
storage technology, that the agency has refused to approve, the 
grid controlled water heaters? Can you get back to me quickly 
on that?
    Mr. Danielson. Absolutely.
    Senator Wyden. 60 days?
    Mr. Danielson. Absolutely.
    Senator Wyden. OK. Mr. Chairman, thank you.
    The Chairman. Thank you. I did not have any questions in 
the second round. Let me call on Senator Murkowski for her 
questions.
    Senator Murkowski. Thank you, Mr. Chairman.
    A lot of discussion about jobs nowadays. The President has 
made a key theme of his Administration of that, of green jobs 
and there's a lot of discussion and debate as to what we're 
actually creating. You talk to some and they say, well, we're 
creating thousands of green jobs on a daily basis.
    One of the stations this morning was reporting that of the 
Stimulus dollars that were spent down from DOE, there's been 
$19 billion of the $38 billion that was authorized in the 
Stimulus. That $19 billion has created a total of 3,545 jobs.
    You do the math on that and it comes down to $5 million, 
$359,000 per job, over $5 million a job. It's almost 
inconceivable. Whether that number is right or whether that 
number is wrong this is something that we're all talking about 
right now.
    What it comes down to, I think from a discussion 
perspective, is what is the priority here? Is the priority to 
create green jobs just to say that we have created a green job 
within the industry or is the priority to really provide for 
lower cost energy because the rest of our economy relies on, 
depends on our low cost energy?
    Ms. Harris, this is going to certainly be an issue for you. 
Sso I want to ask the question just from a 30,000 foot level. 
Should our focus be on creating jobs in the energy sector 
specific to green energy jobs creation or are we better served 
by focusing on driving our costs down?
    It goes back to the statement that I made in the opening 
there that, you know, green jobs, in my opinion, should not 
necessarily be the means to the end. What we need to be asking, 
if in fact you're going to increase your cost of energy, is 
have we really benefited America's families here? I think it 
goes to the heart of what you will be dealing with, Dr. 
Danielson. Is the priority here creating green energy jobs or 
should the priority be focused on driving our energy costs 
down?
    Mr. Danielson. Thank you for your question, Ranking Member 
Murkowski.
    I believe that there's a strong interplay between 
innovation and pushing innovation and making things. In 2 
particular clean energy fields, solar power and in batteries 
for electric vehicles, the Department has very aggressive R and 
D programs that make us feel that we're going to get to 
unsubsidized techno-economic parity with other energy sources 
by the end of the decade. So we're committing the Sun Shot 
Initiative is an initiative within the EERE that is committed 
to getting to a dollar per watt installed in the field at which 
point it would be six cent per kilowatt hour. So that 
initiative is pushing R and D, pushing hard on new installation 
technologies and actually helping work with permitting costs 
which have actually become a significant part of the 
installation there.
    On the battery side we have the same situation where we 
believe that by 2015 the technology will be at the point in 
terms of cost and performance that it will be readily 
economically adoptable without subsidies. So as we get to these 
levels of performance and cost where unsubsidized adoption 
becomes the economic thing to do we think that these areas are 
going to skyrocket in terms of the size of these markets. We 
also think it's important to have the interplay between the 
manufacturing of these products and the innovation of these 
products so that they can complement each other and to continue 
to drive the cost down and the performance up.
    Senator Murkowski. Let me ask you one last question very 
quickly. This relates to a renewable energy source that in my 
State is providing us with 25 percent of our renewable energy 
and this is hydro. You have mentioned you've got great optimism 
with marine hydrokinetic, geothermal, wind, solar, but you did 
not mention hydro- electric generation which provides 7 percent 
of our country's total electricity, two-thirds of it's 
renewable power.
    So as we seek to increase the contribution of renewables 
where does hydro factor into your line of thinking?
    Mr. Danielson. Thank you for your question, Ranking Member 
Murkowski.
    I believe that hydro, conventional hydro has a huge role to 
play. If you--just looking at the analysis that EERE Water 
Program has done. EERE believes that we can add another 100 
gigawatts to the 70 gigawatts we have today by increasing 
efficiency of existing turbines by taking dams that exist that 
are not powered and also by increasing pumped hydro capacity 
and some sustainable new development that we should be able to 
double that amount in the next 20 years.
    Senator Murkowski. We would like to work with you on that.
    Mr. Danielson. Great.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Manchin.
    Senator Manchin. Thank you again, Chairman.
    Dr. Danielson, I know you're getting an unfair portion of 
these questions but you can tell how concerned that we are of 
this proportionately shared money we're spending in different 
directions. So with that being said, I hope that you're aware 
of the National Energy Technology Laboratory in Morgantown, 
West Virginia in your relationship. If you believe that you can 
have a strong relationship they do some very unique things in 
research capabilities. I would just like to know if you are 
aware, if you've been working with them or if you have a 
relationship with them.
    Mr. Danielson. Thank you for your question, Senator 
Manchin.
    I know the Director Anthony Cugini personally, well. Just 
visited them the other day. You know, NETL is a great lab.
    In terms of the EERE mission as part of our, you know, 
collaborative efforts between--across the Department, when I 
was at ARPA-E I was involved with reviews that were performed 
at NETL. The NETL staff in this, the area of energy storage 
were phenomenally good.
    Senator Manchin. Thank you.
    Mr. Danielson. So I would look forward to--if confirmed I 
would look forward to a continued engagement with the best and 
brightest over at NETL.
    Senator Manchin. Thank you. Switching back you mentioned 
China and India as the merging countries with tremendous 
appetite for energy. Where are they spending most of their 
dollars right now in providing the energy? Where is that money 
going and what type of energy are they producing right now to 
provide for the growth and needs of their country and their 
people?
    Mr. Danielson. Thank you for that question. I don't have 
the exact numbers in my mind right now. I'd be more than happy 
to follow up with our DOE's Office of Policy and International 
Affairs on that.
    Mr. Danielson. But in general become aware of very large 
initiatives in coal to liquids.
    Very large efforts in clean coal.
    Large efforts in advanced batteries for electrified 
vehicles and solar power.
    These are all areas that I've become aware of very strong--
--
    Senator Manchin. Let me maybe help you a little bit with 
that then because we've done a lot of research in this. If you 
look at India and you look at China most of their dollars right 
now for kilowatt power is coming from fossil because it's what 
they have. We're not going to change that.
    What we could do is change by proportionately putting money 
into research of clean coal technology, of CO<INF>2</INF> 
capturing and using the waste from CO<INF>2</INF> as we did 
with SO<INF>2</INF>. We're not proportionately putting the 
money there because we're trying to pick winners and losers by 
pushing it somewhere else. I'm a firm believer that we need to 
produce or provide in the research that will find the fuel for 
the future. But you've got to use what you have now and the 
rest of the world is using it.
    If we're truly going to be an innovator and creator of how 
do we clean up this atmosphere and have a part with the 
environment and the economy, it's by finding how/what the rest 
of the world is using and figure out ways of maybe enhance them 
to use it better with new technology. We're not doing it. We're 
missing the boat there.
    I can't figure out for the life of me. I mean, I applaud 
the solar and wind and everything that we're doing. We're for 
that.
    But what we've got and what we know has got/brought us to 
this. They say dance with who brung you. We know what got us to 
the dance. Can't we make it better because China and India is 
going in that direction whether you or I or anyone in America 
wants them to do it or not.
    It's what available for them. They're building coal fired 
plants almost one a week. You're not going to stop them. So why 
shouldn't we develop the technology?
    You don't consider that renewables so that's not what 
you're going is it?
    Mr. Danielson. Yes, thank you for your comments and 
question. It's clear that coal is--it's critical for our 
Nation. You know, 50 percent of our power right now.
    Senator Manchin. Right.
    Mr. Danielson. We have vast reserves. China, India have 
vast reserves.
    Senator Manchin. But I don't hear any of you talking about 
it how we can do it and use it better. I hear a little bit of a 
nice little pat on the back every now and then. But basically 
it's carrying the load.
    Mr. Danielson. Yes. The nominee for the Office of Fossil 
Energy, Chuck, Chuck McConnell and I have a great relationship.
    Senator Manchin. Great.
    Mr. Danielson. When I was in the private sector in a 
venture capital firm I funded a CCS startup which is doing very 
well. So I'm supportive of clean coal. But in my role in EERE I 
would be focused on the clean energy and energy efficiency.
    Senator Manchin. But one final--clean energy, one final 
question to you. Do you believe proportionately we're spending 
the amount of money with the energy that we're receiving from 
the fossil to really find the new technology that we can 
continue to use it until we find the fuel of the future? Are we 
putting the same effort, the same resources as we are with 
everything else trying to develop something that maybe the 
market hasn't accepted as of yet or it's not competitive.
    Do you believe that same effort is being put 
proportionately?
    Mr. Danielson. Thank you for your question. I can tell you 
that the Office of Fossil Energy and EERE, if I'm confirmed, 
are going to be very closely--
    Senator Manchin. But do you believe--you've evaluated. Do 
you believe the same amount of money, proportionately for what 
we're receiving is being spent?
    Mr. Danielson. I guess I can only comment that, you know, 
under the EERE that the area that I'm being asked to really 
cover, you know, I'm going to do absolutely everything I can to 
make sure that we have our budget priorities right there and 
spend dollars in very effective ways.
    Senator Manchin. We'll talk later.
    [Laughter.]
    Mr. Danielson. I look forward to it.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    I'd like to continue, if I could with Mr. Woods. Obviously 
serious questions to be raised about political pressure the 
White House exerted on the Office of Loan Programs to get the 
Solyndra loan wrapped up. You know, in testimony before the 
Energy Committee last February, actually of 2010, Secretary Chu 
said that, with respect to President Obama's goal for stimulus 
spending, ``We looked at the things where we know we can move 
the money more quickly.''
    Just yesterday the White House Press Secretary revealed 
that a scheduled event for the President was creating pressure 
for a decision. If confirmed what safeguards are you going to 
put into place to protect the Department staff from the 
political pressure of the White House?
    Mr. Woods. Sir, in my role as General Counsel is confirmed 
I think my job would be to ensure that all of these loans are 
made in accordance with the law. I think that it's important 
that loans be evaluated pursuant to and in accordance with 
their technical and financial merit. That is the approach that 
I'm familiar with from my years in the private sector.
    As I come to this new position, if confirmed, I intend to 
bring the same level of diligence to these transactions as I 
did with my experience in the private sector, sir.
    Senator Barrasso. Earlier all of you took an oath and 
talked about coming freely to the committee. So I would ask, if 
confirmed, will you report to this committee if and when you 
believe or made aware that the Administration officials are 
improperly trying to influence the decisionmaking of the DOE's 
staff.
    Mr. Woods. Sir, I look forward to working closely with the 
members of this committee with respect to everything that you 
have an interest in. I think that's an important part of our 
relationship with the Members of the Congress. I absolutely 
look forward to working with you and responding to any 
questions that you have responsibly and quickly.
    Senator Barrasso. Thank you.
    Dr. Danielson, It's my understanding looking at your 
biography, you co-founded a firm's clean energy investment 
practice. Would you have invested $500 million of your client's 
money looking at Solyndra?
    Mr. Danielson. Thank you for your question, Senator 
Barrasso.
    I actually don't have any direct experience with Solyndra 
as a company. So I wouldn't be able to make that retrospective 
judgment right now.
    Senator Barrasso. Look at the accountants. Others looked at 
this and said this place is going to be bankrupt in 2 years. 
They said that in 2009. They said probably by September 2011 
and that day it went bankrupt--1,100 people out of work, the 
taxpayers on the hook for $500 million.
    When you try to make assessments of investments what role 
does guaranteed loans from a government have to do with making 
venture type investments?
    Mr. Danielson. Thank you for your question. In my role at 
General Catalyst Partners I was very focused on the earliest 
stages of commercialization where it was really trolling the 
labs and trying to find disruptive technologies and then trying 
to see if those might be able to meet a market need sometime 
down the road. So my personal expertise is more in that early 
stage part of the investment cycle for these technologies.
    Senator Barrasso. What about the role of having private 
investors get paid before taxpayers on the loan guaranteed by 
the government?
    Mr. Danielson. Again, given my early stage finance 
background and not the late stage of debt and equity finance 
background I don't feel like I'm in a position to address that 
direct question----
    Senator Barrasso. It's kind of interesting because you're 
being nominated for the whole country to be the Assistant 
Secretary for Energy Efficiency and Renewable Energy. These are 
key issues that we have to address as a Nation. Your 
qualifications, your educational background is impeccable.
    I'm just trying to figure out where we go. I follow Senator 
Manchin in his thoughts and ideas. I met with Bill Gates in 
this very room 2 days ago. We're very interested in energy and 
using the technology and becoming more energy self sufficient. 
We want to make energy as clean as we can, as fast as we can 
and do it in ways that don't raise costs for American families.
    So, you know, I'm asking specific questions. These are 
questions that I'm hearing at home in Wyoming. I know Senator 
Manchin is hearing them at home. We're all hearing them.
    So, I mean, that's why I raise these issues.
    It's also my understanding--this is for anyone, that the 
Department has until September 30th to guarantee another $10 
billion in loans. I don't know that the confirmation vote in 
the Senate will be held between now and then. But in light of 
the bankruptcy of Solyndra and the political pressure that the 
White House appears to have exerted on the Department, do you 
think it's appropriate to guarantee $10 billion more in loans 
before September 30th?
    Mr. Danielson. Is that addressed at me, Senator?
    Senator Barrasso. Were you shaking your head no or were you 
looking to see if someone else might----
    Mr. Danielson. Is that addressed to me?
    Senator Barrasso. Go right ahead. Then I can ask Mr. Woods.
    Mr. Danielson. Thank you for the question, Senator 
Barrasso.
    If I am confirmed and I am in a position--if I am running 
EERE at a relevant time in the timeframe you're talking about. 
I would be doing everything I could to support any requests 
that the Loan Guarantee Program gave the experts and the EERE 
Program to give them advice.
    Senator Barrasso. Mr. Woods.
    It's a big dollar figure. It's 2 weeks away. We just saw 
what happened with Solyndra where people in the government were 
saying things are good, things are good. I think one person--
well, there were a couple of hiccups or a couple little speed 
bumps--but people in government were saying everything is fine. 
The American people know it's not. It seems it was a rushed 
loan. Now they're looking at another $10 billion.
    Mr. Woods. Right. Thank you, Senator.
    If I'm confirmed before those decisions are made I will 
look at the transactions that are before the Department and 
ensure that my office has done the work necessary to make sure 
that they've been done in compliance with the law.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski, did you have anything 
else?
    Senator Murkowski. I just want to understand this a little 
bit better. It's my understanding that within the Department of 
Energy the Loan Guarantee Department is its own structure. 
You've got a group of former investment bankers, the financial 
guys, the wizards there that access the applicant's background 
and do the vetting that Senator Barrasso has been talking about 
and clearly failed in this one.
    Mr. Woods or Dr. Danielson? Can either of you inform me 
how, within the Department of Energy, the Loan Guarantee 
Program intersects with the General Counsel's Office, 
intersects with EERE, intersects with ARPA-E? My concern is we 
have a colossal failure within the Department of Energy with 
regards to this loan guarantee. It's calling into question 
every loan guarantee that has been issued and quite clearly any 
future loan guarantees that will go forward.
    It would appear to me that we've got some structural issues 
that we need to be dealing with. Can you educate me a little 
bit further in terms of what you think needs to be done to make 
sure that we are never in this situation again? I guess this is 
from a process perspective.
    Either one of you?
    Mr. Woods. Thank you, Senator. I'd be happy to start us 
off.
    As I understand it there's an office within the Office of 
Chief Counsel that works to support the Loan Guarantee Program, 
a team of attorneys who review the transaction documents and 
help to negotiate them to ensure that they are consistent with 
the business deal that's been struck. That work to review to 
ensure that the transactions are done in compliance with the 
law. I don't believe the General Counsel's Office has anything 
to do with, I'll call the underwriting process or analysis of 
the financial merit of the transaction. I'm not sure which 
office is responsible for that. But I think it is outside the 
Office of General Counsel.
    Senator Murkowski. Do you know, Dr. Danielson?
    Mr. Danielson. Thank you for your question, Ranking Member 
Murkowski.
    In that I have not had experience with the Loan Guarantee 
Program before and that it is not under the direct purview of 
EERE, I'm not intimately familiar with their processes. But if 
confirmed I would promise to you and to this committee that 
anything that EERE could do to serve the Loan Guarantee Program 
in its analysis would be offered up.
    Senator Murkowski. It would seem to me that you've got to 
have some kind of intersect or relationship with the Loan 
Guarantee Office. They're not operating in a vacuum where 
they're just kind of reviewing the financial paperwork. They 
need to know from, I'm assuming, the experts within your 
Department, if confirmed, or within ARPA-E that this company 
has something that is even possible. You have to be the one 
that says this is a good opportunity for us. This is one that 
really does need that extra push and we can get it to stand on 
its own. This is one worth taking the risk for.
    Are you saying that you don't have that kind of 
relationship within the Department?
    Mr. Danielson. Thank you for your question.
    No, I'm not saying that it doesn't exist. I'm saying I'm 
just not aware of the detail of flow of the process. I would, 
if confirmed, I would be more than happy to, either way, I'd be 
more than happy to follow up with you on how that process, what 
that process structure is today.
    Senator Murkowski. I guess I'm less than assured by your 
response. It has been my understanding that if you have 
departments or divisions within the Department that are focused 
on helping to build out some of this innovative technology, 
that you would be working within the Department within those 
available programs which are the Loan Guarantee Programs that 
we set up through EPACT 2005, that there would be a real nexus 
between what you're doing and what they're doing so that 
everybody understands.
    I'm hoping that the finance guys are not just checking the 
boxes and saying, ``OK, this one meets the financial criteria'' 
without checking in with you to make sure that this is 
something that we even need and/or want and vice versa. I'm 
hoping that you're not sending up something that doesn't meet 
the financial criteria, which apparently in this case was what 
we saw with Solyndra. So I'm going to do a little more digging 
in terms of how things are structured within DOE right now 
because, right now, I don't have the level of confidence that I 
want to have in ensuring the full faith and credit of what 
we're offering up through the Department of Energy.
    When we're putting taxpayer dollars at risk we want to know 
for a fact that we've got systems that work.
    Thank you, Mr. Chairman.
    The Chairman. Thank you all very much for your testimony. 
We appreciate your willingness to serve in the Administration. 
We hope we can act on your nominations very soon.
    That will conclude our hearing.
    [Whereupon, at 11:12 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

   Responses of Gregory H. Woods to Questions From Senator Murkowski
    Achieving the President's National Export Initiative goal for 
expanding U.S. exports will substantially contribute to the domestic 
economy in terms of employment, tax revenues and technological 
innovation. Based on your previous experience with international 
business issues while at Debevoise and Plimpton, you are familiar with 
many of the competitive pressures that U.S. firms face in the 
international marketplace. DOE's Office of the General Counsel will be 
asked to promulgate regulations and develop policies that have direct 
impact on the competitiveness of U.S. commercial nuclear suppliers in 
the global market.
    Question 1. Foreign nuclear firms typically have the full backing 
of their national governments through direct investment and/or seamless 
and extensive public-private partnerships that promote the expansion of 
their national nuclear supply chain, including services. To date, U.S. 
policies and programs related to civil nuclear exports have been a 
patchwork of uncoordinated efforts and sometimes conflicting policies. 
As the General Counsel at the Department of Energy, would you agree 
that U.S. government policies should support the competitiveness of the 
U.S. commercial nuclear industry in the global nuclear market?
    Answer. Yes.
    Question 2. U.S. suppliers of nuclear commodities and services have 
repeatedly voiced frustration that the byzantine and expansive U.S. 
nuclear export control system imposes major competitive disadvantages 
on U.S. suppliers competing with state-owned international rivals. The 
U.S. Department of Energy has jurisdiction over nuclear technology 
exports under 10 CFR 810, which legal experts have found is more 
restrictive, complex and time-consuming than that of foreign nuclear 
supplier nations. Would you agree that this regulation should be 
streamlined to focus exclusively on the transfer of technology that 
would pose a significant security risk?
    Answer. I understand that 10 CFR 810 implements the statutory 
framework established in section 57 b. of the Atomic Energy Act (42 
U.S.C. Sec.  2077). If confirmed, I would work to ensure that those 
regulations function as efficiently as possible within the statutory 
framework.
    Question 2a. Delays in the licensing of exports can amount to a 
significant commercial disadvantage for suppliers that have slower 
regulators. DOE often takes over 1 year to process specific 
authorizations for commercial nuclear transfers under 10 CFR 810. Would 
you agree that these delays are unacceptable and that DOE should 
undertake a thorough review of DOE's authorization process to improve 
its efficiency?
    Answer. I agree wholeheartedly that it is important to eliminate 
unnecessary delay in this process and that the Department should strive 
to improve its efficiency. If confirmed as General Counsel, I would 
work closely with the Committee to ensure that these regulations 
function as efficiently as possible.
    The Department recently issued proposed amendments to Part 810, the 
first comprehensive updating of the Department's export control 
regulations since 1986 (76 Fed. Reg. 55278). I understand that many of 
the proposed revisions to the rule respond to industry requests that 
the existing rule be clarified and streamlined. If confirmed, I would 
look forward to receiving comments on the proposed rule by the U.S. 
nuclear industry and other interested parties, and would work to 
finalize a revised Part 810 as soon as possible.
    Question 3. In the wake of the recent Fukushima accident, certainty 
in international nuclear liability arrangements is critical to allow 
U.S. suppliers to enter key international markets. The Convention on 
Supplementary Compensation (CSC) is the only international liability 
regime that the U.S. is able to join and, as such, its entrance into 
force is vital for U.S. suppliers. Would you agree that the U.S. 
government should do more to bring the CSC into force?

          a. As part of the implementing legislation for the CSC, the 
        Department of Energy was tasked with developing a Retrospective 
        Risk Pooling Program (RRPP) that allocate U.S. costs to 
        suppliers in the event that there was ever a call for damages 
        under the convention. What is your view on the importance of 
        reliable data to inform the development of rules that are both 
        rational and do not hinder the competitiveness of U.S. 
        suppliers?
          b. Since the Convention is not in force, what is your view on 
        the wisdom of continuing the CSC RRPP rulemaking before 
        supporting data is collected and analyzed?

    Answer. While I am not familiar with the specifics of the CSC and 
the Department's rulemaking to develop a Retrospective Risk Pooling 
Program, I understand that the U.S. Government supports widespread 
adherence to the CSC and has been actively pursuing and encouraging 
other nations to ratify the CSC and bring it into force. If confirmed 
as the Department's General Counsel, I would support those continued 
efforts by the U.S. Government.
    I understand that the Department is acting under a statutory 
mandate to issue a CSC RRPP rulemaking (42 U.S.C. 
Sec. 17373(e)(2)(C)(i)). As a general matter, I do not believe that 
rulemakings should be issued without development and analysis of a 
complete factual record. If confirmed as General Counsel, I would work 
to ensure that any rulemaking on this issue by the Department will have 
a rational basis in fact and law, will be fair and equitable, and will 
not unnecessarily hinder the competitiveness of U.S. nuclear suppliers 
in the global nuclear market.
                                 ______
                                 
   Responses of David T. Danielson to Questions From Senator Stabenow
    Question 1. In its budget justification for fiscal year 2012, the 
Department singled out funding for non-ARRA supported SuperTruck awards 
for potential deferral or rescission. This program supports critical 
research and development among commercial vehicles and any changes to 
existing funding commitments would jeopardize important strides being 
made to improve the fuel economy of these vehicles, especially in light 
of the mandated standards on this sector of vehicles. Does EERE plan to 
honor all the SuperTruck awards it has made from both ARRA and 
discretionary fiscal year 2010 funding?
    Answer. Yes, the Department plans to continue funding all 
SuperTruck awards and the ARRA-supported SuperTruck awards are fully-
funded. SuperTruck projects incorporate multiple vehicle technologies 
(e.g., hybridization, lightweighting, combustion, etc.), so several 
Vehicles Technology Program (VTP) key activities will provide funding 
to support this effort and there is some flexibility to change the 
level of support by specific technology area, depending on availability 
of funds.
    Question 2. Enforcement actions, like the one in 2010 that banned 
certain foreign manufacturers from using the ENERGY STAR label on 
refrigerators, demonstrated DOE's commitment to protect the ENERGY STAR 
and federal appliance standard programs.
    However, recent reports suggest that problems persist. Just last 
month, an investigation by Consumer Reports revealed certain foreign 
manufactured refrigerators under-report energy use by more than 50% , 
with one foreign model potentially unable to meet even federal minimum 
standards. What are your response to these troubling reports? How would 
the Department respond under your guidance? How would you describe your 
overall commitment to the enforcement of rules to ensure consumers are 
given truthful information, and manufacturers compete by the same 
rules?
    Answer. Since DOE began enforcing energy efficiency standards, 
manufacturers have certified compliance with the efficiency standards 
for over 700,000 models of consumer products and commercial and 
industrial equipment. DOE has set up a process for determining 
compliance with both the ENERGY STAR specification and DOE Federal 
energy conservation standards. Any ENERGY STAR model that is found to 
be non-compliant with Federal energy conservation standards is subject 
to enforcement actions by DOE and any model that is found to not meet 
the ENERGY STAR specifications is referred to the Environmental 
Protection Agency (EPA) for action.
    During an investigation, DOE typically discusses the product with 
the manufacturer, reviews manufacturer test data underlying certified 
ratings, and undertakes additional testing, if needed. DOE initiates 
enforcement investigations upon receiving complaints from interested 
parties, including manufacturers, regarding potential non-compliant 
products. For example, last year DOE investigated three refrigerator-
freezers claimed by Consumer Reports to fail either ENERGY STAR 
requirements or federal standards. DOE determined, through testing in 
accordance with federal test procedures, that all three models met both 
the ENERGY STAR requirements and the federal standards.
    This year, DOE adopted new regulations permitting the Department to 
perform a single test on a product to determine whether further 
investigation of the product is warranted. This ``assessment test'' is 
a new investigatory tool to help the Department monitor compliance. 
Prior to any penalty action, DOE conducts additional testing and 
provides the manufacturer with notice of potential pending penalties. 
The new regulations also permit DOE to test units obtained from retail 
sources so as to ensure the units tested are representative of the 
units a consumer would purchase.
    Question 3. In DOE's budget request for FY 2012, what criteria did 
the Department use to justify the recommended shift of funding from the 
recently awarded Advanced Technology Powertrains for Light-Duty 
Vehicles (ATP-LD) program, all of which were private sector/academic 
partnerships that will increase fuel economy in light duty vehicles, in 
favor of a computational modeling project that will take place at a 
National Laboratory? What are the projected fuel economy gains of the 
current ATP-LD projects versus the computational modeling project, and 
over what time period will these fuel economy gains be achieved?
    Answer. The goal for these projects is to develop technologies by 
2015 that can increase the fuel economy of gasoline vehicles by 25% and 
diesel vehicles by 40% when compared to a 2009 baseline gasoline 
vehicle. These improvements will be achieved by increasing the 
efficiency of the internal combustion engine.
    The complexity of engine combustion and the revolutionary 
approaches needed to further increase engine efficiency and allow for 
increased use of alternative fuels require the Department to develop 
simulation codes and computation platforms that are far more advanced 
than those available today. Projects for the proposed large scale 
computational simulations of combustion would be competitively 
selected. Awardees would typically be required to provide a 50% cost 
share and would most likely include teams consisting of industry, 
national laboratories, and universities. The large scale computation 
projects would provide the design tools for industry to improve engine 
efficiencies by 30-50% at a third of the development time needed 
currently. As a result of these projects, introduction of more fuel 
efficient, environmentally compliant engines in our national fleet of 
on-highway passenger and commercial vehicles could begin to take place 
in 2017 and would enable potential national savings of over 5 million 
barrels of oil per day, equivalent to $500 million per day, at today's 
prices\1\.
---------------------------------------------------------------------------
    \1\ http://science.energy.gov//media/bes/pdf/reports/files/
PreSICE_rpt.pdf
---------------------------------------------------------------------------
   Responses of David T. Danielson to Questions From Senator Shaheen
    The efficiency community and industry are particularly concerned 
with DOE/EERE's support of US manufacturing moving forward, 
particularly the Industrial Technologies Program (ITP). We have been 
hearing more of a focus on R&D rather than commercialization. Both are 
critical, but commercialization should not be left out nor its impact 
for jobs ignored.
    Question 1a. Will commercialization of existing technologies still 
be a priority for you as Assistant Secretary?
    Answer. Overcoming market barrier continues to be an important part 
of EERE's ongoing work. ITP's focus on R&D is directed at the higher 
Technology Readiness Levels (TRL 3-6) and not at basic research and 
development (TRL 1-2). Attainment of the nation's long-term industrial 
energy efficiency, economic competitiveness, and environmental 
performance goals will require the kind of significant breakthroughs 
achievable only through the innovation of new industrially-relevant and 
scalable manufacturing processes and materials technologies. By 
investing in later-stage scale-up and manufacturing technologies, ITP 
promotes both the domestic manufacturing sector and job creation. This 
effort is complementary to DOE's continued investment in technology 
deployment and commercialization.
    ITP is also aiding commercialization through Superior Energy 
Performance (SEP)--a market-based, American National Standards 
Institute-accredited certification program that provides industrial and 
commercial facilities with a roadmap for continual improvement in 
energy efficiency while boosting competitiveness. A key goal of SEP is 
to foster a corporate culture that recognizes the importance of 
improving energy efficiency, which, in turn, will accelerate 
commercialization of existing energy efficiency technologies and best 
practices.
    Finally, ITP is evolving its industrial partnership program to 
align it with President Obama's Better Buildings Challenge--a national 
leadership initiative calling on chief executive officers, university 
presidents, and state and local leaders to create American jobs through 
energy efficiency. As the industrial component of the Better Buildings 
Challenge, the Better Buildings, Better Plants initiative will provide 
greater integration for ITP's commercialization efforts across the 
industrial and commercial sectors. Participating companies will receive 
access to technical assistance on how to develop an energy use 
baseline, track progress against that baseline, identify energy saving 
opportunities, and evaluate new technologies that could be purchased to 
capture those opportunities.
    Question 1b. How do you plan to engage industrial stakeholders 
(i.e., trade associations and companies) in planning the ITP's 
direction?
    Answer. ITP considers stakeholder engagement to be an important 
element of its planning processes and is in regular communication with 
companies, trade associations, utilities, states, national labs and 
academia. For example, meetings were recently held with the American 
Council for an Energy-Efficient Economy (ACEEE) and the Alliance for 
Materials and Manufacturing Excellence (AMMEX), an alliance 
representing a range of companies and labor organizations in the 
materials manufacturing sector--aluminum, chemicals, forest products, 
glass metal casting and steel, along with several non-profit 
stakeholders.
    Over the past 18 months, ITP has worked with the United States 
Energy Association on a major industry consultation effort to seek 
stakeholder input on strategies for accelerating combined heat and 
power (CHP) deployment in the United States. ITP has also conducted a 
series of regional education workshops with the Industrial Energy 
Consumers of America, bringing together manufacturers and utilities to 
discuss market barriers to CHP implementation.
    ITP is also participating in the first regional Advanced 
Manufacturing Partnership outreach meeting, to be held by the 
President's Council of Advisors on Science and Technology Working Group 
on Advanced Manufacturing at the Georgia Institute of Technology on 
October 14, 2011.\2\
---------------------------------------------------------------------------
    \2\ http://www.whitehouse.gov/administration/eop/ostp/pcast/amp/
meetings
---------------------------------------------------------------------------
    Question 1c. Under the severely constrained budgets that seem on 
their way, do you support keeping a broad portfolio of both R&D and 
deployment programs? Do you recognize the critical government role in 
deployment as well as R&D?
    Answer. ITP's efforts on both R&D and deployment are strategically 
focused to maximize their respective impacts throughout the industrial 
sector. ITP's R&D efforts are focused on developing and demonstrating 
new, energy efficient manufacturing processes and materials 
technologies at a convincing scale. In order for manufacturing 
processes projects to become part of ITP's portfolio, they will need to 
be broadly applicable, reduce energy intensity, and efficiently direct 
energy to the task of forming the product. Likewise, in order for 
materials technologies projects to become part of ITP's portfolio they 
will need to focus on materials that will be pervasive; reduce life-
cycle energy requirements; and result in low-cost, high-performance 
products.
    Currently, ITP is soliciting applications for projects under its 
Innovative Manufacturing Initiative (IMI)--a 3-year, cost shared R&D 
funding opportunity to advance the development of transformational 
manufacturing and materials technologies that could enable a doubling 
of energy productivity in U.S. industry, revitalize existing 
manufacturing industries, and support the development of new products 
in existing and emerging industries. In order to achieve maximum 
effectiveness in a constrained budget environment, ITP plans to co-
invest with other government programs at the Department of Energy and 
the Department of Defense.
    Specific to deployment, ITP continues to invest in and leverage a 
suite of industrial energy efficiency tools, training, technical 
assistance, and recognition to enhance the scope and speed of 
improvement in energy management among manufacturers.
    ITP's Industrial Assessment Centers (IACs)--a collection of 24 
university-based programs throughout the country that provide 
engineering students with extensive training in industrial processes, 
energy assessment procedures, and energy management principles--address 
energy efficiency improvements at small and medium-sized industrial and 
manufacturing facilities. As a result, the IAC program helps local 
companies and factories reduce waste, save money, and become more 
economically competitive through energy efficiency improvements while 
also helping students become the next generation of leaders in energy 
efficiency.
    Through Superior Energy Performance (SEP)--a market-based, American 
National Standards Institute-accredited certification program--ITP 
promotes standards as a means of providing industrial and commercial 
facilities with a roadmap for continual improvement in energy 
efficiency while boosting competitiveness.
    Finally, ITP is evolving its industrial partnership program to 
align it with President Obama's Better Buildings Challenge--a national 
leadership initiative calling on chief executive officers, university 
presidents, and state and local leaders to create American jobs through 
energy efficiency. As the industrial component of the Better Buildings 
Challenge, the Better Buildings, Better Plants initiative will provide 
greater integration for ITP's commercialization and deployment efforts 
across the industrial and commercial sectors.
    Question 2. One of the areas that of interest to me is the 
retrofitting of our existing building stock to improve their efficiency 
and cut energy costs. Buildings account for 40% of our total energy use 
and unlocking the potential that exists in retrofitting existing 
buildings could make serious progress in addressing our energy 
challenges.
    A key barrier for building retrofits is access to capital, which is 
why we included a provision in S. 1000 which would expand the existing 
DOE Loan Guarantee Program to cover building retrofits and unlock 
private capital to help finance these efficiency projects. DOE has yet 
to take a position on this provision and I would appreciate if you 
would get back to me in writing with your thoughts on this provision.
    Answer. While the Administration does not yet have a position on 
S.1000, it is my understanding that the Administration does believe 
that federal financing may be an appropriate tool to leverage private 
sector investment and stimulate energy efficient building retrofits, as 
evidenced by the President's 2012 budget, which requests $105 million 
to create a pilot program to provide loan guarantees to finance such 
retrofits for Hospitals, Schools, and Universities. I support the 
President's budget request and agree that improving the energy 
efficiency of our existing building stock can help save energy and save 
money for consumers and businesses.
    Question 3. At the request of DOE and the Administration, several 
stakeholders submitted the attached report last January detailing how 
the existing DOE Loan Guarantee Program could be utilized to cover 
retrofits of existing buildings without requiring new legislation. As 
noted in the report, the term ``efficient end-use technologies''--a 
phrase currently used in Section 1603, under the list of projects 
eligible for loan guarantees--would allow for a pilot LG program for 
building retrofits. Please see pp. 7-9 of ``Existing Authorities'' 
report.

          a. Based on this interpretation of existing authority, does 
        DOE believes it has the current program authority for a 
        building retrofit loan guarantee pilot program. If not, why 
        not?

    Answer. LPO is authorized to provide loan guarantees in support of 
``efficient end-use energy technologies'' (Section 1703(b)(7)). LPO 
believes that building retrofit projects intended to enhance energy 
efficiency should generally qualify as ``efficient end-use energy 
technologies''.
    However, Section 1703 has an ``innovativeness'' requirement, 
meaning that the Section 1703 program can only support projects using 
energy efficiency technologies that are ``new or significantly 
improved,'' as compared to commercial technologies currently in service 
in the United States.
    Thus, the 1703 program, as currently written, would not be an 
option for projects seeking to conduct building retrofits using 
conventional energy efficiency technologies. Additionally, a building 
retrofit program would likely have to be administered and operated 
differently from the existing Section 1703 program, potentially 
creating administrative and operational challenges. For example, the 
necessary financial due diligence conducted by the program would likely 
be cost-prohibitive for a single-building retrofit project.
    Question 3b. If DOE does not believe it has current 1603 program 
authority, then why doesn't the Department more actively support the 
loan guarantee language as set forth in S. 1000--which would clearly 
give DOE the retrofit LG authority it thinks it currently lacks?
    Answer. While the Administration does not yet have a position on 
S.1000, it is my understanding the Administration does believe that 
federal financing may be an appropriate tool to leverage private sector 
investment and stimulate energy efficient building retrofits, as 
evidenced by the President's 2012 budget, which requests $105 million 
to create a pilot program to provide loan guarantees to finance such 
retrofits for Hospitals, Schools, and Universities.
    Question 4. With dramatically shrinking Federal facility budgets 
and ambitious energy efficiency goals, will you be supportive of 
greater use of energy savings performance contracts and other private 
sector financing arrangements to upgrade federal facilities and reduce 
the government's energy bill?
    Answer. The use of energy savings performance contracts (ESPCs) and 
other private sector financing arrangements is a key mechanism for 
achieving our goals of upgrading federal facilities and reducing the 
government's energy bill. The August 16, 2011 memo issued from OMB and 
CEQ to Agency Senior Sustainability Officers, Supporting Energy and 
Sustainability Goal Achievement Through Efficiency and Deployment of 
Clean Energy Technology, confirms the Administration's support of the 
increased Federal use of ESPCs. The Office of Energy Efficiency and 
Renewable Energy's Federal Energy Management Program is actively 
engaged in supporting Federal agencies use of ESPCs, utility energy 
savings performance contracts, and other project funding mechanisms.
    Question 5. I have noted on many occasions that energy efficiency 
should be a part of a clean energy standard; however, it was notably 
absent in the White House's original proposal. Since that time, White 
House and DOE staff have told us that their position on efficiency is 
still ``evolving'' and that a CES may be able to include efficiency 
technologies, like combined heat and power and waste heat recovery. Do 
you feel that ready-to-go energy efficiency technologies should be 
included as part of any Clean Energy Standard proposal?
    Answer. As envisioned by the President, a Clean Energy Standard 
(CES) would be designed to be technology neutral. By defining clean 
energy very broadly to include renewables, nuclear power, efficient 
natural gas, and coal or natural gas with carbon capture and storage, a 
CES is consistent with a very large number of possible technological 
pathways, letting the market, rather than government, select the 
technologies that can best meet the target. This is a flexible approach 
that taps American ingenuity and innovation to enhance our energy 
security. Energy efficiency has a central role to play in meeting our 
clean energy goals, which is why the President has supported and 
proposed a range of programs to promote greater energy efficiency in 
America's homes, factories, and commercial buildings, including the 
HOMESTAR program and the Better Buildings Initiative. As Congress 
considers the President's CES proposal, if confirmed, I would be happy 
to work with you and your colleagues to determine how to most 
effectively incorporate energy efficiency into a CES.
    Question 6. Affordable and reliable electricity supplies are vital 
to the competitiveness of U.S. businesses and in particular to U.S. 
manufacturers. We know that energy efficiency measures, such as 
Combined Heat and Power, can effectively achieve both goals. Can you 
describe the benefits that CHP offers to manufacturers and the size of 
the opportunity to widely deploy CHP in this country?
    Answer. Combined heat and power (CHP) benefits manufacturers in a 
variety of ways. Most notably, CHP generates both the heat and power 
needed for industrial processes on-site, offsetting the use of 
electricity from the grid, and can be nearly twice as efficient as 
conventional heat and power production. By making use of heat produced 
during power generation on-site, CHP avoids losses from the generation 
and transmission of energy off-site. CHP also offers flexibility in 
fuel selection and can take advantage of both fossil fuels and locally-
sourced and renewable fuels. In these ways CHP reduces the risk of both 
power disruptions and price uncertainty. Overall, in addition to 
reducing carbon dioxide emissions and improving energy efficiency, CHP 
helps to enhance energy reliability and security by diversifying our 
generation portfolio and lessening stress on our transmission and 
distribution system. CHP is also one of the most cost-effective options 
to improve the competitive position of American industries and 
manufacturers.
    The opportunity to increase the deployment of CHP in the United 
States is substantial. According to the 2008 report issued by the Oak 
Ridge National Laboratory, CHP comprises 8.6% of US generating 
capacity. Approximately 12 other countries have a higher share of their 
power production from CHP\3\. In that same report, it was shown that, 
if the US were to achieve 20% of its electric production capacity from 
CHP, over five quadrillion British thermal units (BTUs) of fuel would 
be saved, or nearly half of all the fuel consumed by U.S. households.
---------------------------------------------------------------------------
    \3\ ``Combined Heat and Power: Effective Energy Solutions for a 
Sustainable Future,'' ORNL, December 1, 2008, p. 22.
---------------------------------------------------------------------------
    Question 7. I am concerned that despite the sizable opportunity 
presented by CHP, the technology has not been deployed as widely as 
possible. A 2008 study by the Oak Ridge National Labs identified a 
variety of challenges to wider CHP use, some technical and some 
regulatory. What steps can EERE take to address these issues?
    Answer. EERE is currently taking steps to resolve technical issues 
inhibiting broader adoption of CHP through a competitively selected 
research and development program, particularly for small (500 KW) to 
mid-sized (5 MW) systems. In addition, through sponsorship of nine 
regional Clean Energy Application Centers, EERE is working at the local 
and state levels to identify and address the policy and regulatory 
barriers that prevent CHP systems from being more widely adopted. This 
latter activity is closely coordinated with activities of the DOE/EPA 
State and Local Energy Efficiency Action Network. By convening 
interested parties in relevant states through these activities, EERE is 
helping to build a compelling case on the benefits of, and methods for 
promoting, CHP adoption throughout industry.
    Question 8. Through Clean Energy Application Centers, EERE provides 
technical assistance to end-users seeking to install CHP, and to date 
DOE has supported nearly 350 CHP projects. What is DOE's commitment to 
these efforts and how do you think we can expand on them?
    Answer. EERE currently sponsors nine Clean Energy Application 
Centers--eight covering the 50 States and Puerto Rico, and one devoted 
to increasing deployment of clean district heating systems. The Clean 
Energy Application Centers were selected following a competitive 
solicitation issued in 2009 and are under contract through 2013. EERE 
intends to continue supporting Clean Energy Application Centers in 
future fiscal years, and will also pursue performance reviews to 
determine the extent to which expansion of the program is warranted.
    Question 9. There is currently a tax deduction for energy efficient 
commercial buildings at Section 179D of the Internal Revenue Code, 
which was enacted as part of the Energy Policy Act of 2005. Many 
believe that the 179D deduction has been underutilized since its 
enactment because it is too difficult to meet some of the requirements. 
Among other things, 179D directs the DOE to develop prescriptive 
regulations for how the incentive can be best used for HVAC, window and 
roof retrofits. Such regulations could provide much needed clarity on 
how the 179D incentive could be better used in its current form. What 
is the current status of DOE's efforts to draft these regulations and 
when does the Department plan to issue them?
    Answer. Statute 179d of the Internal Revenue Code directs the 
Secretary of the Treasury to draft regulations on the application of a 
building efficiency deduction to the tax code. The Department of Energy 
has met with Treasury and IRS staff on multiple occasions to discuss 
the current IRS regulation. If confirmed, I will continue to work on 
this issue and will assist the Treasury on any changes they choose to 
make in the current rule.
  Responses of David T. Danielson to Questions From Senator Murkowski
    Question 1. In August 2008, I understand you posted a note on the 
MIT Energy Club's blog touting a number of new energy policies in 
Massachusetts. You finished that post by suggesting what you believe 
are the ideal elements of a national clean energy policy, including a 
cap-and-trade system and mandates for clean fuels and electricity. Is 
that still your vision of what the United States' energy policy should 
look like? Has anything changed over the past three years, or are you 
still pretty comfortable with that post?
    Answer. As I did at the time of authoring the blog post to which 
you refer, I continue to believe that a comprehensive and stable 
national energy policy is critical to creating an environment in which 
the U.S. private sector can rapidly develop and deploy advanced energy 
technologies to reduce our oil imports, improve the nation's security, 
create new American jobs, and reduce energy-related emissions. I am 
supportive of the President's goals of reducing U.S. oil imports by 
one-third by 2025; implementing the automobile efficiency standards he 
has enacted that increase corporate average fuel economy to 35.5 mpg in 
2016 and 54.5 mpg by 2025; putting 1 million plug-in vehicles on the 
road by 2015; decreasing energy usage in commercial buildings by 20%; 
and enacting his proposed Clean Energy Standard, which would aim to 
increase the amount of clean electricity on the U.S. grid to 80% by 
2035 and would include renewables, nuclear, coal with carbon capture 
and storage, and efficient natural gas.
    Question 2. High oil prices are one of the reasons our economy is 
slipping back towards a double-dip recession. Can you describe your 
views on how we can reduce those prices? Do you believe supply matters? 
Would it be economically beneficial for our nation to tap into more of 
its abundant natural resources, in place like Alaska and offshore?
    Answer. On March 30, 2011, President Obama announced a 
comprehensive energy plan to reduce the amount of oil we consume as a 
Nation in his ``Blueprint for a Secure Energy Future.'' The Blueprint 
includes the goal of reducing our oil imports by one-third by 2025 
through reducing our oil consumption by improving the fuel efficiency 
of our cars and trucks, by switching to alternate fuels, and by 
producing more domestic oil. I support the President's plan and believe 
it will both reduce our dependence on foreign sources of oil and put 
downwards pressure on oil prices by reducing our oil demand.
    An important part of President Obama's energy plan is to promote 
oil development in selected areas of Alaska and certain offshore areas 
in the continental United States. In Alaska, the Federal government has 
already initiated leasing and development of selected lands offshore 
while leaving other lands off-limits for development due to 
environmental sensitivity. To ensure that development in Alaska fully 
considers all points of view on development the President issued an 
Executive Order on July 12, 2011 creating an Interagency Working Group 
on coordination of domestic energy development and permitting in 
Alaska. In this order, the President stated that, ``Interagency 
coordination is important for the safe, responsible, and efficient 
development of oil and natural gas resources in Alaska, both onshore 
and on the Alaska Outer Continental Shelf (OCS), while protecting human 
health and the environment, as well as indigenous populations.
    Question 3. You came to the federal government from the world of 
venture capitalism, and for the past several years, you've been at 
ARPA-E. Do you think the federal government's support policies for 
clean energy are appropriately oriented? What would you do to improve 
these policies?
    Answer. The government plays a key role in supporting domestic 
clean energy industries that can out-innovate and out-compete the 
industries of any country in the world. EERE works hard to ensure that 
the projects it undertakes are in the areas of greatest interest to 
U.S. businesses and insists that industry participate with increasing 
levels of cost share as basic concepts approach a point where 
proprietary products emerge. But the industry has been clear that in 
order to compete with determined foreign competitors who receive strong 
financial support from their governments, they need the U.S. government 
to help them in key areas like advanced research, regulations that 
encourage innovative solutions, and, in some cases, early stage 
financing for first-of-a-kind production. Nearly all the key 
technologies underlying today's clean energy equipment are the direct 
result of federal research support--including EERE research--made over 
the past several decades.
    Well-crafted federal programs are essential to spurring private 
innovation and investment, so EERE measures success by whether its work 
translates into a successful U.S. business opportunity--when a company 
can take a concept developed with EERE funding and make it a commercial 
success.
    Question 4. Earlier this week, the American Energy Innovation 
Council released a new report suggesting a number of reforms for the 
Department of Energy. One is that ARPA-E should be expanded. Do you 
agree that ARPA-E should play a larger role in the Department's future? 
What do you believe that role should encompass?
    Answer. Having been a Program Director at ARPA-E since its creation 
in April 2009, I am a true believer in its potential to develop game-
changing new energy technology pathways that could dramatically lower 
U.S. oil imports, increase our energy security, create large numbers of 
U.S. jobs, and decrease energy related emissions. I believe both ARPA-E 
and the Office of Energy Efficiency and Renewable Energy (EERE) will 
and should play a large role in the Department's future and I believe 
that ARPA-E and EERE play highly synergistic and complimentary roles 
within the Department of Energy. ARPA-E's role at the Department of 
Energy is to explore and validate completely new high-risk energy 
technology learning curves that have a high probability of failure, but 
that if successful could leapfrog the technologies that are on today's 
learning curves. The role of the EERE is to identify the most promising 
new technologies that emerge from ARPA-E and other sources of U.S. 
energy science and technology innovation and, in partnership with the 
best and the brightest from the U.S. private sector, national 
laboratories, and U.S. universities, provide the support required to 
rapidly drive these advanced new energy technologies to the performance 
and unsubsidized cost levels required for widespread commercial 
adoption.
    Question 5. As you know, we have a Super Committee that's been 
tasked with reducing federal deficits by $1.5 trillion over the next 10 
years. Just about every option appears to be on the table. Within our 
jurisdiction, we have significant opportunities for revenues from new 
resource production, but we may also see EERE and other program offices 
returned to pre-stimulus funding levels. Do you have any comment on 
that possibility? If EERE's budget is reduced, what do you think will 
be most important for it to focus on?
    Answer. The President's budget request includes funding levels for 
EERE programs that would provide the resources to help meet our 
nation's energy goals, while growing our economy and keeping America 
competitive in the 21st century. Recognizing the need to exercise 
budget restraint, the President rebalanced investments in the FY12 
request to reflect a very clear and deliberate investment in Department 
of Energy programs with the most direct impact on meeting our nation's 
energy goals.
    Question 6. As a program director at ARPA-E, you have significant 
experience with energy storage technologies, which are widely seen as 
critical to boosting the use of renewable energy. Please describe how 
you believe the federal government can best promote the development and 
use of energy storage technologies.
    Answer. Energy storage technologies are indeed critical to boosting 
the use of renewable energy. They will help increase the penetration of 
renewable energy on the grid and enhance existing electric system 
assets, increasing the reliability of electricity transmission and 
distribution. To minimize the unreliability associated with the 
intermittent nature of certain forms of renewable energy (e.g., solar 
and wind), energy storage will address three critical functions: 
regulation, ramping/load following, and bulk energy management.
    In order to respond aggressively to meet the pressing future needs 
for energy storage, DOE activities are being coordinated by an energy-
storage working group consisting of senior leadership and technology 
experts from all relevant programs--including the Offices of Science/
Basic Energy Science, Energy Efficiency and Renewable Energy (EERE), 
the Advanced Research Projects Agency--Energy (ARPA-E), Electricity 
Delivery and Energy Reliability, as well as both the Offices of the 
Under Secretaries for Energy and for Science.
    The DOE approach is to accelerate research and demonstration to 
minimize inefficiencies, and to anticipate industry needs. DOE has 
outlined a number of specific short-term and long-term actions that 
should be undertaken to meet long-term energy-storage targets.
    Short-term actions lasting five years or less include advanced 
research and development of alternative materials for energy storage 
devices, setting standards and metrics (including analyzing 
requirements related to frequency response times), simulation/modeling 
(including projecting and assessing the impact on grid performance), 
demonstrations, and deployment facilitations.
    Long-term actions (greater than five years) involve both actions in 
support of innovation as well as deployment. Innovation-focused actions 
include fundamental research into new materials, design of more 
effective storage technologies, research on self-balancing battery 
chemistries, and other advanced technologies. Long-term actions could 
include cost-shared large-scale deployment projects.
    Working in collaboration with other stakeholders, DOE can support 
its important energy storage objectives and advance the nation's use of 
energy storage to derive the associated benefits--including advancing 
science and innovation, increasing the use of clean secure energy 
sources, enhancing economic prosperity, and reducing greenhouse gas 
emissions.
    Question 7. One of the largest challenges to the deployment of 
electric vehicles is that we need batteries that are both far less 
costly and far more efficient. Some believe that lithium ion batteries 
can meet both of those goals, but quite a few others don't believe 
that's possible. Can you comment on your experiences with battery 
technologies, what you believe will be necessary for electric vehicles 
to succeed, and the role you believe the federal government should play 
in this area?
    Answer. The Department of Energy (DOE) has a long and successful 
track record of battery technology development. DOE-developed battery 
technology is in all major electric drive vehicles on the road today.
    Further R&D is needed, however. Current state-of-the-art lithium-
ion batteries are adequate for initial product launches, but we must 
continue to improve battery performance and drive down costs to enable 
future commercial competitiveness of electric vehicles without consumer 
tax credits. A rich variety of new battery materials are currently 
being developed that will provide substantial improvement in the energy 
density and cost of lithium-ion batteries, and the electric vehicle 
market will likely be dominated by lithium-ion batteries for at least 
the next decade. However, broader market acceptance may require further 
improvements in battery technology. Thus, DOE is researching new 
battery concepts (such as lithium-air or lithium/sulfur batteries).
    Global competition in advanced battery development is intense, and 
battery technology is evolving rapidly. Strong Federal support for R&D 
is needed to ensure that the U.S. maintains technology leadership. DOE 
supports a broad portfolio of electric drive vehicle battery R&D that 
spans basic research to applied development. The Office of Science/
Basic Energy Science programsupports fundamental research on enabling 
materials through its Energy Frontiers Research Centers. The Advanced 
Research Projects Agency--Energy (ARPA-E) conducts transformational 
research on revolutionary, ``game-changing'' energy storage 
technologies. EERE battery R&D is focused on applied development and 
demonstration of advanced batteries to enable a large market 
penetration of electric drive vehicles. Finally, the Department 
envisions that an Energy Storage and Battery Hub it plans to establish 
in FY 2012 would complement these existing programs, integrating 
multiple disciplines in a single effort that could help speed the 
development of next generation energy storage technologies.
    Question 8. Our committee staff has heard from several Energy Star 
stakeholders about the changing direction of that program. As you know, 
Energy Star is a well-regarded, voluntary program and a brand that many 
consumers look for when choosing home appliances and electronics. Will 
you work with the stakeholders to address any concerns they may have 
about the changing nature of the Energy Star?
    Answer. DOE is the technical lead for the ENERGY STAR program 
through its development of product test procedures and support of the 
verification testing program. DOE remains committed to work with the 
Environmental Protection Agency (EPA) and stakeholders on creating and 
updating ENERGY STAR test procedures that are reflective of innovations 
in the market place and address manufacturers concerns with test 
procedures. As an example, DOE and EPA are working closely with the 
Association of Home Appliance Manufacturers (AHAM) and major 
refrigerator manufacturers in the development of test procedures to 
support Smart Grid capability in ENERGY STAR refrigerators.
    Question 9. Alaska that has the potential, according to the 
Electric Power Research Institute, to generate 1,250 terrawatts of 
energy from tidal and wave energy--also known as marine hydrokinetics. 
As a Senator from Alaska, I'm extremely interested in making sure that 
some of our research dollars are allocated to this part of the water 
power industry to ensure that it not only survives, but thrives in the 
future. I notice that while you were at General Catalyst Partners you 
seemed more involved in wind, solar and biomass projects. What are your 
views about the future of marine hydrokinetics and what would you like 
DOE to do, if anything, to advance these technologies in the future?

          a. I have legislation pending that would have DOE take over 
        verification of new marine hydrokinetic devices and provide 
        more robust funding for demonstration projects. What is your 
        view about my legislation, S. 630? More generally, what do you 
        see as the proper role, if any, for DOE and Congress to advance 
        marine hydrokinetic technology? What can we do to help the 
        industry get through permitting hassles and to pick up the pace 
        of getting projects into the water nationwide?

    Answer. As you know, Steve Chalk, EERE's Deputy Assistant Secretary 
for Renewable Energy, testified before your Committee on March 31, 
2011, ``If funding is realized under S. 630, development of MHK [marine 
and hydrokinetic] technologies would be accelerated, speeding their 
transformation from promising but fledgling technologies to 
commercially viable, clean, renewable energy sources.'' S. 630 would 
accelerate the growth of the MHK industry through additional federal 
aid, and expand the scope and scale of DOE's MHK activities. The 
additional funding authorized by S. 630 would represent a significant 
increase in DOE's program for MHK technologies, and is significantly 
higher than either the FY 2012 Budget Request of $18 million or the FY 
2010 Budget of $37 million. The President's FY 2012 budget represents 
DOE's priorities for applied R&D in energy efficiency and renewable 
energy technologies.
    DOE is currently working to support the design, development and 
testing of a variety of MHK systems, identifying key cost drivers and 
performance characteristics, and investing in technology improvement 
opportunities. DOE leverages its extensive expertise in technology 
development to identify and fund research in areas where industry 
currently lacks either the capabilities or financial resources. DOE is 
very optimistic that it can play a major role in helping industry 
commercialize this technology so it can make an impact in providing 
affordable energy options for Alaska and other regions of the country.
    To address the current challenges of siting and permitting projects 
in U.S. waters, DOE organizes an ad-hoc interagency working group for 
offshore renewable energy, under the Interagency Working Group on Ocean 
Partnerships (IWG-OP), chartered by the Joint Subcommittee on Ocean 
Science and Technology. Participants, which include NOAA, DOI's Bureau 
of Ocean Energy Management, FERC, Navy, Coast Guard, EPA, Army Corps of 
Engineers, and Fish and Wildlife Service, will continue ongoing 
information sharing activities, pursue opportunities for interagency 
research and development funding, and leverage support through the 
National Oceanographic Partnership Program. Through Broad Area 
Announcements under the National Oceanographic Partnership Program, DOE 
has also co-funded research projects to develop environmental protocols 
and monitoring strategies to support ocean renewable energy. Finally, 
DOE supports MHK siting and market acceleration activities through 
interagency MOUs. For example, in 2010 DOE and the Department of 
Interior's Bureau of Ocean Energy signed an MOU to spur deployment of 
offshore renewable energy projects, including those for wave energy. In 
January 2011, DOE and NOAA signed an MOU to facilitate collaborative 
work regarding modeling and forecasting for weather dependent 
renewables.
    Question 10. Geothermal is also a technology that I think holds 
real promise to provide clean energy for the nation. What is your view 
about what Congress and the Administration can do to further 
geothermal's development? Are our current efforts sufficient, or is 
there more that we should be doing?
    Answer. To further the development of geothermal energy, 
technologies must be developed that (1) reduce the cost and risk of 
identifying and characterizing undiscovered hydrothermal resources, and 
(2) enable the economical and sustainable extraction of heat from 
enhanced geothermal systems. The Department of Energy's research, 
development and demonstration efforts are focused on advanced 
exploration technologies and reservoir creation tools that address 
these two needs. Existing legislative authorizations, in combination 
with the Administration's FY 2012 budget request for Geothermal 
Technologies and loan guarantees, would likely be sufficient to advance 
and commercialize emerging geothermal energy technologies. With reduced 
risk and cost, it is also likely that the private sector would be more 
willing to provide financing at affordable rates--leading to an 
expansion of the geothermal industry.
    Question 11. Back in 2007, in the Energy Independence and Security 
Act, we approved a program for renewable energy deployment grants to 
help renewable projects get `over the hump', but the Department has 
never proposed any funding to implement the grants. What is your 
philosophical view on this? Is appropriate for the federal government 
to ever make grants available to help cover capital costs of a host of 
renewable technologies, especially in areas where electric rates are 
far above the national average? In Alaska, for example, there are towns 
where people are paying more than $1 a kilowatt for diesel-fired 
generation. Don't we have some responsibility to help reduce those 
costs, which are about 10 times more than the average American pays for 
power?
    Answer. Section 803, titled ``Renewable Energy Deployment,'' of the 
Energy Independence and Security Act (EISA) allows 50:50 cost share of 
renewable energy construction grants. To date, the Department has not 
requested funding for Section 803. Many of the incentives to 
commercialize new technologies exist within DOE but outside of EERE, 
for example in the Loan Guarantee Program. The Department also works 
closely with other government agencies, such as the Internal Revenue 
Service and the Department of the Treasury to support commercialization 
via various tax policies.
    However, R&D of innovative technologies is only effective if the 
market knows those technologies exist. Accordingly, under the Recovery 
Act, the Department made very large investments in renewable energy 
deployment on a 50:50 cost share basis through the State Energy Program 
and Energy Efficiency and Conservation Block Grant program. It is 
believed that these renewable energy projects will be effective in 
demonstrating economic feasibility and in laying the groundwork for 
States and communities to expand deployment.
    Section 625 of EISA, titled ``High Cost Geothermal Grant Program,'' 
authorizes DOE to conduct studies and demonstrations in regions with 
electricity costs in excess of 150% of the U.S. average. To date, the 
Department has not requested appropriations specifically for Section 
625. However, in a recent Recovery Act competitive solicitation, we 
identified this authority as a special policy consideration in 
selecting projects. In future geothermal solicitations, DOE intends on 
utilizing this policy as a way to help people from regions with much 
higher energy costs than the rest of the Nation.
    Over the last two years, the DOE has sponsored Brian Hirsch, a 
renewable energy expert at the National Renewable Energy Laboratory, to 
assist the State of Alaska in achieving its goal of 50% renewable 
energy generation by 2025. Mr. Hirsch has initiated studies in biomass 
utilization, district heating, wind energy and marine and hydrokinetic 
devices to provide advice to many Alaskan organizations and technical 
assistance to many remote tribes. If appropriations allow, DOE plans to 
continue this vital support to Alaska in bringing more affordable 
energy options to its citizens.
    Question 12. Underground coal gasification has been pursued for 
nearly a century around the world and produces syngas that can be used 
in everything from power plants to stove-tops. Is the Department of 
Energy pursuing the deployment of underground coal gasification 
technologies, in addition to the more traditional gasification work of 
the agency? If not, should the Department be pursuing this technology 
more aggressively going forward?
    Answer. I understand that DOE's Office of Fossil Energy (FE) is 
working to develop certain technologies, such as syngas cleaning, that 
will also be applicable to syngas from underground gasification (UG) 
systems. However, the Department of Energy is not currently pursuing an 
underground coal gasification technologies program. The Department 
continues to monitor national and international UG developments. The 
Department is committed to upholding the President's goals to expand 
America's innovative competitive edge through strategic investments in 
our Nation's clean energy research development and demonstrations 
(RD&D). While every Office within the Department has had to make 
difficult funding decisions in the current fiscal environment, overall 
the Department continues to invest in the key enabling technologies 
that are on critical paths and that show the highest potential impacts 
on achieving the program goals and benefits in the time frame needed 
for deployment.
                                 ______
                                 
   Responses of LaDoris G. Harris to Questions From Senator Murkowski
    Question 1. You have a wealth of experience at various companies 
throughout a good portion of the energy spectrum. In your new position, 
you'll be focused on the economic impacts of energy prices, 
regulations, and other federal policies. Generally, can you describe 
whether you think low-cost energy should be a priority for our nation? 
Where would you rank its importance compared to other goals, such as 
making our energy supply cleaner?
    Answer. Access to clean, affordable, secure, and reliable energy 
has been a cornerstone of America's economic growth. Affordable energy 
supports both quality of life and productivity across the economy and 
is critical to maintaining manufacturing competitiveness in the United 
States. In addition, increases in energy costs can have a 
disproportionate impact on lower-income families. However, I do not 
believe there should be a tradeoff between low-cost energy and clean 
energy. President Obama and Secretary Chu have made the development of 
low-cost clean energy a priority at the Department of Energy and I am 
fully supportive of these programs.
    Question 2. Back in 2005 Congress authorized grant aid to Indian 
tribes and Alaska Native corporations to be provided by the Office of 
Indian Energy. The Department has made some grants, but the assistance 
for Native energy projects, both fossil fuel development and 
renewables, has been sparse and uneven. I know you will say that is the 
result of Congress not providing larger appropriations, but I also 
don't remember the Department in its budget submission ever seeking 
significant sums for the grants. They were authorized at $20 million a 
year through 2016, but my memory is that DOE has never sought more than 
about $6 million for the program. What can you do to advocate for more 
assistance for Native energy project development on Native lands?
    Answer. The Office of Indian Energy (IE) is the Department's lead 
on implementation of the 2005 Energy Policy Act. If I am confirmed as 
the Director of the Office of Minority Economic Impact, I will partner 
with IE on tribal energy development and help build capacity in Indian 
Country via small business supported contracts. One of the core 
missions of the Office I will lead, if confirmed, is to be a 
Department-wide resource to support other program offices' outreach to 
underrepresented communities and to make these communities aware of 
opportunities that exist within the DOE. Additionally, if confirmed, I 
will use my experience in corporate America to ensure that the Office I 
will lead is actively engaged with other Departmental offices, 
including IE, to help increase the technical expertise that is 
available to Indian Country to aid in energy development. For example, 
the Office of Minority Economic Impact participates in DOE's Tribal 
Steering Committee, which regularly meets to discuss how the Department 
can better serve Tribal and Alaskan Native communities, and is an 
active participant in the Interagency Working Group on Indian Affairs 
which is intended to facilitate the collaboration of Federal agencies 
as they work on cross-cutting issues such as natural resource 
management and energy development.

          a. Follow-Up: Title 5 of EPACT 05 also created a Department 
        Indian Energy Loan program to provide loans of up to $2 billion 
        for projects on Native/tribal lands. I am unaware of the 
        Department ever granting a loan to a reservation or Native 
        corporation over the past six years. What is your view as to 
        the importance of the loan program to aid minority development 
        of energy projects?

    Answer. The Office of Indian Energy (IE) administers the Indian 
Energy Loan program established in Title 5 of EPACT 05. If I am 
confirmed as the Director of the Office of Minority Economic Impact, I 
will work closely with IE to support its implementation of this 
program.
    Question 3. Given the amount of energy that lies on tribal lands, 
notably coal in the American west and Alaska, but also hydrocarbons and 
other minerals, shouldn't we be doing more to help tribal and 
corporations develop their coal deposits in an environmentally safe 
manner, either through underground coal gasification that largely 
sequesters carbon underground, or by providing aid for coal-to-liquid 
plants with carbon sequestration that will permit the coal to be 
utilized profitably, while meeting the Administration's desires for 
carbon emission reductions? I know there is an underground coal 
gasification project being proposed on Native lands outside of 
Anchorage right now, but am unaware of any DOE program to help it 
proceed. What are your views on whether the Department could help such 
a project proceed?
    Answer. The DOE Office of Fossil Energy (FE) has the lead within 
the Department on advanced coal development and carbon capture and 
sequestration projects. If I am confirmed as the Director of the Office 
of Minority Economic Impact, I will work closely with FE and with the 
Office of Indian Energy (IE) to assess the viability of coal projects 
on tribal lands.

                                    

      

</pre></body></html>
